Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




ADVERSE EVENTS IN HOSPITALS:
  OVERVIEW OF KEY ISSUES




                    Daniel R. Levinson
                     Inspector General

                      December 2008
                     OEI-06-07-00470
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
  Δ         E X E C U T I V E                      S U M M A R Y



                    OBJECTIVE
                    To provide a descriptive analysis of the key issues regarding adverse
                    events in hospitals.


                    BACKGROUND
                    The term “adverse event” describes any harm to a patient as a result of
                    medical care, such as infection because of contaminated equipment.
                    The Tax Relief and Health Care Act of 2006 (the Act) mandates that the
                    Office of Inspector General (OIG) report to Congress regarding the
                    incidence of “never events” among Medicare beneficiaries, payment by
                    Medicare or beneficiaries for services furnished in connection with such
                    events, and the processes that the Centers for Medicare & Medicaid
                    Services (CMS) uses to identify events and deny payment. Never events
                    are a specific list of serious events, such as surgery on the wrong
                    patient, that the National Quality Forum deemed “should never occur in
                    a health care setting.” Expanding beyond this specific list, this and
                    subsequent OIG reports use the broader term “adverse event” to provide
                    for a more comprehensive examination of key issues. This report is one
                    in a series to fulfill the requirements in the Act and inform
                    decisionmakers. OIG work in this area will continue through 2009.

                    To facilitate OIG efforts to comply with the mandate, we first sought to
                    identify key issues regarding adverse events in hospitals to provide
                    direction and context for our work. This overview report combines
                    evidence, analysis, and opinion from a wide range of sources. These
                    sources, which we refer to collectively as “stakeholders,” represent
                    diverse entities involved in addressing adverse events in hospitals,
                    including government agencies and other policymakers, professional
                    associations, oversight organizations, patient safety groups, providers,
                    and researchers.


                    KEY ISSUES
                    We identified the following seven issues as most critical to
                    understanding the landscape of adverse events in hospitals:
                    Issue 1: Estimates of the incidence of adverse events in
                    hospitals vary widely and measurement is difficult. Research
                    estimates of the frequency of adverse events in hospitals vary from
                    3 percent to 20 percent of hospital admissions, in part because there


OEI-06-07-00470     ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   i
    E X E C U T I V E         S U            M M A R Y


                  is no optimal method for measuring incidence. Research also
                  indicates that elderly patients are particularly vulnerable.
                  Issue 2: Nonpayment policies for adverse events are gaining in
                  prominence and are viewed as a powerful incentive to reduce
                  incidence but raise potential drawbacks. CMS’s new policy will deny
                  hospitals higher payment for admissions complicated by selected
                  adverse events, and private health care payers are adopting similar
                  policies. Stakeholders generally believe that nonpayment provides an
                  incentive to prevent costly adverse events. Potential drawbacks of
                  nonpayment raised by stakeholders include limited access to care,
                  increased hospital costs, and reduced hospital revenue.
                  Issue 3: Hospitals rely on staff and managers to report adverse
                  events internally, but barriers can inhibit reporting. Reporting
                  events and suspected causes can help hospitals improve practices to
                  prevent adverse events and ensure accountability for poor care.
                  Hospitals also use reported information to inform affected patients and
                  families, which is thought to boost public trust, and to improve clinical
                  decisionmaking and compliance in treatment. However, hospital staff
                  may not report events because they do not believe that reports will lead
                  to improvement, do not have time, or fear punitive action.
                  Issue 4: Hospitals report adverse events to various oversight
                  entities, although stakeholders suspect substantial
                  underreporting. Although there is no comprehensive national
                  reporting system for adverse events, a number of Federal, State, and
                  nongovernmental entities receive adverse event reports from hospitals.
                  Hospitals are believed to underreport adverse events, although it is
                  difficult to know to what extent. However, stakeholders indicated that
                  reporting every adverse event is not necessary to achieve the aim of
                  improving practices to prevent adverse events.
                  Issue 5: Public disclosure of adverse events can benefit patients
                  but also raises legal concerns for patients and providers. Access to
                  adverse event information provides public scrutiny that may pressure
                  hospitals to improve practices. However, concerns that hospitals,
                  clinicians, and patients can lose legal protections when adverse event
                  information is reported can inhibit full disclosure of adverse events.




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   ii
    E X E C U T I V E         S U            M M A R Y


                  Issue 6: Information to help prevent adverse events is widely
                  available, but some hospitals and clinicians may be slow to adopt
                  or routinely apply recommended practices. Hospitals and clinicians
                  are sometimes slow to adopt recommended practices, such as
                  evidence-based clinical practice guidelines, which outline systematically
                  developed procedures to improve care. Literature indicates that
                  hospital staff and clinicians may believe that the guidelines are not
                  relevant to their setting or that they value individual practitioner
                  judgment more than regimented standards of care.
                  Issue 7: Interviews and literature reveal strategies that may
                  accelerate progress in reducing the incidence of adverse events in
                  hospitals. Strategies included the following:

                  •   assessing the desirability and feasibility of a national body to lead
                      patient safety efforts, which would help to coordinate, but not
                      replace, current efforts by government agencies and private entities;
                  •   focusing on hospital use of recommended practices and
                      evidence-based guidelines to reduce the incidence of adverse events,
                      including measuring hospital use;

                  •   establishing methods for measuring the incidence of adverse events,
                      including tools for practical and accurate data collection;

                  •   expanding the use of electronic health records within and between
                      hospitals, thus improving communication and continuity of care to
                      potentially reduce the incidence of adverse events;

                  •   monitoring the impact of policies to deny hospitals higher payment
                      for admissions complicated by selected adverse events; and

                  •   improving the utility of adverse event reporting, including
                      evaluating the comparability of data reported across entities and
                      streamlining reporting mechanisms to reduce burden on hospitals.


                  SUMMARY
                  The extensive range of entities involved in researching and addressing
                  adverse events shows that reducing the incidence of adverse events is a
                  high priority. Stakeholders described the current environment among
                  hospitals and policymakers as being on the threshold of accelerated
                  progress. They point to a large body of research as improving
                  understanding, including recognition of the critical role of hospital
                  systems in guarding against adverse events. Additionally, new policies,

OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   iii
    E X E C U T I V E         S U            M M A R Y


                  such as denying hospitals higher payment for admissions complicated
                  by certain adverse events and public disclosure of events, strengthen
                  hospital incentives to develop safer practices. These advancements in
                  clinical understanding, combined with heightened controls, hold
                  promise for reducing the incidence of adverse events in hospitals and
                  improving the quality of care.


                  AGENCY COMMENTS
                  We received comments on a draft of this report from the Agency for
                  Healthcare Research and Quality (AHRQ) and CMS.

                  AHRQ concurred with the report’s findings.

                  CMS commended OIG on succinctly capturing the numerous issues
                  surrounding this complex topic, acknowledged technical assistance
                  provided to OIG in conducting this study, and indicated that it
                  welcomed continued work with OIG on this issue.

                  CMS reiterated its policies to encourage the prevention of adverse
                  events that are enumerated in the report, particularly the nonpayment
                  provision for hospital-acquired conditions, noting that OIG’s work is
                  supportive of and will enable more effective CMS implementation of the
                  provision. CMS agreed that nonpayment for care associated with
                  adverse events strengthens hospitals’ incentives to develop safety
                  practices and reduces health care costs in the long term. CMS also
                  addressed the three potential drawbacks of nonpayment policies raised
                  by stakeholders, providing further discussion to indicate that it believes
                  these drawbacks are unlikely to occur.




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   iv
Δ   T A B L E          O F           C O N T E N T S


         EXECUTIVE SUMMARY .....................................i


         INTRODUCTION ........................................... 1


         K E Y I S S U E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                   Issue 1: Estimates of adverse event incidence vary widely . . . . . 11

                   Issue 2: Nonpayment policies are gaining prominence. . . . . . . . . 16

                   Issue 3: Hospitals rely on staff to report adverse events . . . . . . . 19

                   Issue 4: Hospitals report adverse events to oversight entities . . . 22

                   Issue 5: Public disclosure has benefits but raises concerns . . . . . 26

                   Issue 6: Hospitals may be slow to apply practices . . . . . . . . . . . . 28

                   Issue 7: Interviews and literature reveal strategies . . . . . . . . . . . 32


         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34


         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                   A: Tax Relief and Health Care Act of 2006 . . . . . . . . . . . . . . . . . . 36

                   B: Glossary of Selected Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

                   C: National Quality Forum Serious Reportable Events . . . . . . . . 39

                   D. List of Stakeholders Interviewed . . . . . . . . . . . . . . . . . . . . . . . 40

                   E: Examples of Data Analysis: Stakeholder Interviews and
                      Literature Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

                   F: Examples of Research: Incidence of Adverse Events. . . . . . . . 44

                   G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48
Δ    I N T R O D U C T I O N


                      OBJECTIVE
                      To provide a descriptive analysis of the key issues regarding adverse
                      events in hospitals.


                      BACKGROUND
                      Statutory Mandate and Office of Inspector General Response
                      The Tax Relief and Health Care Act of 2006 (the Act) requires that the
                      Office of Inspector General (OIG) study events that cause harm to
                      Medicare beneficiaries. The Act specifically mandates that OIG study
                      the incidence of “never events” among Medicare beneficiaries, payment
                      by Medicare or beneficiaries for services furnished in connection with
                      such events, and administrative processes of the Centers for Medicare &
                      Medicaid Services (CMS) to identify events and deny or recoup
                      payment. OIG is also to report to Congress on the study conducted,
                      including recommendations for such legislation and administrative
                      action as OIG determines appropriate. (For relevant text of the Act, see
                      Appendix A.)
                      A variety of terms, lists, and definitions are used to identify and address
                      harmful health care events. (For a glossary of selected terms, see
                      Appendix B.) The term “never event” is used to describe a specific list of
                      serious events that the National Quality Forum (NQF) determined
                      “should never occur in a health care setting” and are associated
                      primarily with patient death or serious disability. 1 NQF currently uses
                      the term “serious reportable events” to describe this list. (For a list of
                      NQF serious reportable events, see Appendix C.) Expanding beyond the
                      specific events defined by NQF, this and subsequent OIG reports use
                      the broader and more common term “adverse event” to provide for a
                      more comprehensive examination of key issues.

                      Following a review of Medicare policies and expenditures, as well as
                      consultation with CMS and the Agency for Healthcare Research and
                      Quality (AHRQ), we chose to focus much of our work on the hospital
                      setting. Costs for inpatient hospital care constitute the largest portion




                        1 NQF is a not-for-profit membership organization created to develop and implement a
                      national strategy for health care quality measurement and reporting. The list is available
                      online at http://www.qualityforum.org/about. Accessed on October 21, 2008.




    OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   1
I N T R O D        U C T      I O N

                    of Medicare expenditures (29.6 percent in 2007). 2 Also, many current
                    efforts by government agencies and private entities to research and
                    address adverse events target care provided in hospitals.

                    OIG is conducting a series of studies through 2009 to fulfill the
                    requirements in the Act and to inform decisionmakers regarding
                    adverse events. To facilitate OIG efforts to comply with the Act, we first
                    sought to identify key issues regarding adverse events in hospitals to
                    provide direction and context for our future work. To describe these key
                    issues, this overview report combines evidence, analysis, and opinion
                    from a wide range of sources. Key issues include current analysis and
                    discourse regarding the primary components of the Act: incidence,
                    payment (including CMS processes), and the balance between protecting
                    patient privacy and providing information to improve patient safety.
                    Other OIG studies focus on estimating the incidence of adverse events
                    among Medicare beneficiaries, State efforts to operate adverse event
                    reporting systems, Medicare beneficiaries receiving potentially
                    inappropriate drug pairs that may reflect medication errors, and
                    hospital actions to address and prevent adverse events.
                    Adverse Events in Hospitals
                    The term “adverse event” describes any harm to a patient as a result of
                    medical care. An adverse event indicates that the care resulted in an
                    undesirable clinical outcome and that the clinical outcome was not
                    caused by an underlying disease. Adverse events include medical
                    errors, such as use of incompatible blood products. They may also
                    include more general substandard care that results in harm, such as
                    infection because of contaminated equipment, incorrect diagnoses, and
                    lack of patient monitoring during treatment. Research, policies, and
                    action taken to reduce adverse events often focus on mistakes and
                    systemic problems with care. However, adverse events do not always
                    involve errors, negligence, or poor quality of care and may not always be
                    preventable.

                    Reducing the incidence of adverse events in hospitals is a critical
                    component of efforts to ensure patient safety and to provide quality
                    health care. The Institute of Medicine (IOM) report, “To Err is Human:
                    Building a Safer Health System,” is often credited with first drawing



                      2 Based on data contained in Congressional Budget Office (CBO) “Fact Sheet for CBO’s

                    March 2007 Baseline: Medicare,” March 7, 2007. Available online at
                    http://www.cbo.gov/budget/factsheets/2007b/medicare.pdf. Accessed on September 8, 2008.



 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                2
I N T R O D        U C T      I O N

                    widespread attention to the issue of adverse events in hospitals. 3 IOM
                    cited two studies that used medical record reviews to identify adverse
                    events (defined as injuries caused by medical management) with similar
                    results. The first study, using hospitalizations in a single State, found
                    that 3.7 percent of hospital patients experienced adverse events,
                    58 percent of these events were preventable, and 13.6 percent resulted
                    in death. 4 A second study, replicating the methodology in two other
                    States, found that 2.9 percent of hospital patients experienced adverse
                    events, of which 53 percent were preventable and 6.6 percent resulted in
                    death. 5 IOM extrapolated these results to hospital admissions
                    nationwide for 1997, concluding that preventable adverse events caused
                    “at least 44,000 and perhaps as many as 98,000 deaths in hospitals each
                    year.” 6
                    Following the IOM report, the Federal Government formed the Center
                    for Patient Safety and Quality Improvement within AHRQ to coordinate
                    research regarding patient safety. Since that time, AHRQ has
                    conducted and funded many research efforts regarding adverse events,
                    promulgated recommended practice guidelines, and provided much
                    analysis and guidance regarding patient safety issues. As of
                    September 2008, the patient safety Web site operated by AHRQ, Patient
                    Safety Network (PSnet), provides over 3,500 publications related to
                    patient safety and adds an average of 10 publications a week. 7
                    Hospital Oversight and Guidance
                    Various government agencies and other entities are responsible for
                    addressing adverse events in hospitals, often as part of overall efforts to
                    ensure that minimum standards are met and improve health care
                    quality. Federal and State governments, nonprofit entities, academic

                      3 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is Human: Building a
                    Safer Health System.” A Report of the Committee on Quality of Health Care in America,
                    Institute of Medicine, Washington, DC, National Academy Press, 1999.
                      4 T. A. Brennan, L. L. Leape, N. M. Laird, et al., “Incidence of Adverse Events and
                    Negligence in Hospitalized Patients: Results of the Harvard Medical Practice Study 1,”
                    New England Journal of Medicine, 324(6), 1991, pp. 370–376. Abstract available online at
                    http://content.nejm.org/cgi/content/abstract/324/6/370. Accessed on October 10, 2008.
                      5 E. J. Thomas, D. M. Studdert, H. R. Burstin, et al., “Incidence and Types of Adverse
                    Events and Negligent Care in Utah and Colorado,” Medical Care, 38(3), 2000, pp. 261–271.
                    Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/10718351. Accessed on
                    October 10, 2008.
                      6 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is Human: Building a
                    Safer Health System.” A Report of the Committee on Quality of Health Care in America,
                    Institute of Medicine, Washington, DC, National Academy Press, 1999.
                      7 Estimate of number of publications based on interviews with PSnet editors. AHRQ
                    PSnet is available online at http://www.psnet.ahrq.gov/. Accessed on October 9, 2008.



 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                 3
I N T R O D        U C T      I O N

                    institutions, professional organizations, and accrediting bodies have set
                    standards, issued guidance, and provided technical assistance to
                    hospitals. Additionally, hospitals must track and analyze adverse
                    events as a condition of participation for Medicare and Medicaid
                    certification. 8 Although hospitals are required by CMS to develop and
                    maintain systems for tracking adverse events, Federal regulations do
                    not require specific system characteristics.

                    Oversight of hospitals is generally conducted by States and
                    accreditation organizations, most prominently the Joint Commission.
                    The Joint Commission establishes standards for hospitals, conducts
                    periodic surveys to review policies and to observe operations onsite, and
                    accepts hospital reports of adverse events. Accreditation by the Joint
                    Commission is voluntary, and approximately 80 percent of U.S.
                    hospitals are accredited. Accreditation requires that hospitals comply
                    with many standards, some of which relate specifically to patient
                    safety. 9 In 2002, the Joint Commission established its National Patient
                    Safety Goals program to provide hospitals with recommended practices
                    related to “persistent patient safety problems.” National Patient Safety
                    Goals include preventing patients from falling and preventing surgical
                    errors. 10 For 2009, the program added three goals specific to health
                    care-associated infections. 11
                    State health departments address adverse events and quality-of-care
                    issues through hospital licensing. To be licensed, hospitals must meet
                    minimum care standards established by the States. In some States, a
                    Joint Commission accreditation serves as evidence that these standards
                    have been met. Additionally, State health departments may conduct
                    onsite surveys of hospitals in response to complaints by patients or
                    families. Other private organizations establish standards for quality of
                    care or patient safety and give hospitals accreditation status or ratings
                    based on meeting standards and demonstrating results. Federally


                      8 42 CFR § 482.21.
                      9 The Joint Commission, The Joint Commission Requirements Hospital Page,
                    “Requirements for Accreditation,” updated October 29, 2008. Available online at
                    http://www.jcrinc.com/TJC-Requirements-Hospital-Page/. Accessed on December 5, 2008.
                      10 The Joint Commission, “2009 Hospital National Patient Safety Goals,” October 2008.
                    Available online at http://www.jointcommission.org/NR/rdonlyres/40A7233C-C4F7-4680-
                    9861-80CDFD5F62C6/0/09_NPSG_HAP_gp.pdf. Accessed on October 21, 2008.
                      11 The Joint Commission, “News Release: The Joint Commission Announces 2009
                    National Patient Safety Goals,” June 17, 2008. Available online at
                    http://www.jointcommission.org/PatientSafety/NationalPatientSafetyGoals/09_hap_npsgs.h
                    tm. Accessed on August 28, 2008.



 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                4
I N T R O D        U C T       I O N

                    funded Quality Improvement Organizations, private entities that
                    contract with CMS to support quality of care, also provide guidance and
                    technical assistance to hospitals and other Medicare providers.

                    Various health care entities often use different terms and definitions for
                    adverse events. Some of these entities have developed lists of adverse
                    events for more precise definition and measurement of events, including
                    the following prominent lists:

                    •     NQF—serious reportable events, originally referred to as never
                          events because they should never happen in a health care setting;12
                    •     The Joint Commission—sentinel events, the term “sentinel”
                          denoting a serious event that signals the need for immediate
                          investigation and response; 13
                    •     AHRQ—Patient Safety Indicators (PSI), conditions or circumstances
                          identifiable in administrative data, such as discharge and billing
                          records; 14 and
                    •     CMS—categories of hospital-acquired conditions for which Medicare
                          will not pay hospitals higher reimbursement. 15

                    Medicare Payment for Adverse Events
                    Medicare traditionally did not distinguish between costs incurred in
                    treating existing illness from those incurred as the result of adverse
                    events. Medicare reimbursement to hospitals is generally determined
                    by grouping patient conditions into diagnosis-related groups (DRG)
                    based on the average cost of care for patients with similar conditions.
                    Historically, if a Medicare beneficiary experienced harm from an




                        12 NQF, “Serious Reportable Events in Healthcare 2006 Update: A Consensus Report,”
                    Washington, DC, 2007, p. 7. Available online at
                    http://www.qualityforum.org/pdf/reports/sre/txsrepublic.pdf. Accessed on October 10, 2008.
                      13 The Joint Commisssion, “Sentinel Events Fact Sheet,” Section IV, Reviewable Sentinel
                    Events, updated July 2007, p. 3. Available online at
                    http://www.jointcommission.org/NR/rdonlyres/F84F9DC6-A5DA-490F-A91F-
                    A9FCE26347C4/0/SE_chapter_july07.pdf. Accessed on October 10, 2008.
                        14 AHRQ, “Patient Safety Indicators Overview,” AHRQ Quality Indicators,
                    February 2006. Available online at
                    http://www.qualityindicators.ahrq.gov/psi_overview.htm. Accessed on August 28, 2008.
                        15 CMS, “Hospital-Acquired Conditions,” August 19, 2008. Available online at
                    http://www.cms.hhs.gov/HospitalAcqCond/06_Hospital-
                    Acquired_Conditions.asp#TopOfPage. Accessed on October 10, 2008.



 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES               5
I N T R O D        U C T        I O N

                    adverse event that resulted in assignment of a more expensive DRG,
                    CMS paid the full claim without any payment reduction. 16
                    Hospital-Acquired Conditions. The Deficit Reduction Act of 2005 (DRA)
                    required CMS to select at least two hospital-acquired conditions for
                    which hospitals would not be paid higher Medicare reimbursement. 17
                    CMS issued a final regulation in August 2007 to initiate policy for which
                    CMS would deny hospitals higher payment for admissions complicated
                    by eight categories of hospital-acquired conditions. CMS chose the
                    categories of conditions in collaboration with the Centers for Disease
                    Control and Prevention (CDC) and used the following criteria:

                    •     conditions that are high cost, high volume, or both;
                    •     conditions that, when present as a secondary diagnosis, result in
                          assignment of a case to a DRG that has a higher payment;

                    •     conditions that could be reasonably prevented by using readily
                          available evidence-based guidelines; and

                    •     conditions that are identifiable based on one or more unique
                          diagnosis codes. 18
                    Changes to CMS Payment. In addition to designating the list of
                    categories of hospital-acquired conditions, the final regulation
                    implements a more specific list of DRGs called Medicare Severity
                    Diagnosis-Related Groups (MS-DRG). MS-DRGs split some of the prior
                    DRGs into two or three individual classes based on the presence of a
                    complication or comorbidity. 19 Each medical diagnosis (ICD-9-CM)
                    code 20 submitted must include a new indicator designating whether the
                    condition is or is not “present on admission” (POA). 21 The final rule
                    applies only to traditional fee-for-service Medicare and does not apply to

                      16 Department of Health and Human Services (HHS), CMS, Press Release, “Eliminating
                    Serious, Preventable, and Costly Medical Errors – Never Events,” May 18, 2006. Available
                    online at http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=1863. Accessed on
                    August 28, 2008.
                        17 DRA, § 5001(c), P.L. No. 109-171 (adding Social Security Act, § 1886(d)(4)(D)),
                    provided for a quality adjustment in DRG payments for certain hospital-acquired
                    conditions.
                        18 Ibid.
                        19 42 CFR § 412.10, fiscal year (FY) 2008 Inpatient Prospective Payment System (IPPS)
                    Final Rule, 72 Fed. Reg. 47130, 47138 (Aug. 22, 2007).
                        20 The ICD-9-CM system assigns diagnoses and procedure codes associated with
                    hospitalizations and is maintained jointly by the National Center for Health Statistics
                    (NCHS) and CMS. NCHS, “The International Classification of Diseases, 9th Revision,
                    Clinical Modification” (ICD-9-CM), Sixth Edition, issued for use beginning October 1, 2007.
                        21 DRA, P.L. No. 109-171, § 5001(c), adding Social Security Act, § 1886(d)(4)(D).




 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                  6
I N T R O D        U C T       I O N

                    Medicare managed care (Medicare Advantage Organizations (MAO)).
                    To determine how MAOs can be held accountable for adverse events,
                    CMS will begin in 2010 to collect data from MAOs regarding care
                    associated with adverse events. 22
                    In July 2008, CMS issued a final rule to expand the list of
                    hospital-acquired conditions for a total of 10 categories of conditions.
                    Effective October 1, 2008, CMS will deny hospitals higher payment for
                    Medicare admissions complicated by these categories of conditions: 23
                    •     Foreign object retained after surgery
                    •     Air embolism
                    •     Blood incompatibility
                    •     Pressure ulcers (Stages III and IV)
                    •     Falls resulting in fracture, dislocation, intracranial injury, or
                          crushing injury; category also includes burn and electric shock
                    •     Manifestations of poor glycemic control resulting in certain
                          conditions
                    •     Catheter-associated urinary tract infection
                    •     Vascular-catheter-associated infection
                    •     Deep vein thrombosis/pulmonary embolism associated with total
                          knee replacement or hip replacement
                    •     Surgical site infection associated with certain surgeries

                    Also in 2008, CMS began analysis of its coverage policy regarding
                    certain events on the NQF list of serious reportable events 24 and issued
                    a letter to State Medicaid directors providing guidance for State
                    implementation of a coordinated denial of higher payment for
                    admissions wherein Medicaid serves as a secondary payer. 25



                      22 Supporting Statement for Paperwork Reduction Act Submissions: Part C Medicare

                    Advantage Reporting Requirements and Supporting Regulations, 42 CFR § 422.516 (a).
                        23 FY 2009 Final IPPS Rule, 73 Fed. Reg. 48434 and 48471 (Aug. 19, 2008).
                        24 Social Security Act § 1862(a)(1)(A) provides authority for CMS to determine whether a
                    service or an item is reasonable and necessary. CMS, Medicare Coverage Database,
                    “National Coverage Analyses: Surgery on the Wrong Body Part; Surgery on the Wrong
                    Patient; and Wrong Surgery Performed on a Patient,” updated May 30, 2008. Available
                    online at http://www.cms.hhs.gov/mcd/index_list.asp?list_type=nca. Accessed on
                    November 4, 2008.
                        25 CMS, Letter to State Medicaid Directors, SMDL #08-004, July 31, 2008. Available
                    online at http://www.cms.hhs.gov/SMDL/downloads/SMD073108.pdf. Accessed on
                    October 20, 2008.



 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                 7
                  SCOPE AND METHODOLOGY
                  Scope

                  This report describes key issues regarding adverse events in hospitals.
                  We conducted a literature review of a wide range of published work
                  covering not only adverse events but also the broader topic of patient
                  safety. We also conducted structured interviews with stakeholders,
                  including researchers; clinicians; and officials from government
                  agencies, oversight entities, and patient safety groups. These activities
                  occurred between March 2007 and November 2008.

                  Literature Review
                  The literature review included professional and academic journal
                  articles and government reports. We selected literature based on its
                  relevancy to the topic, currency, and citation by other sources. We
                  identified published works using a variety of sources, including:

                  •   input from staff at AHRQ, CMS, and other stakeholders;

                  •   Internet search tools, e.g., AHRQ’s PSnet, Health Services Research
                      Library, and Medline; and

                  •   bibliographies in literature identified by these sources.

                  Stakeholder Interviews
                  We conducted 85 structured interviews with a variety of stakeholders to
                  gain insight into policies, practices, and viewpoints regarding adverse
                  events. The interview protocol covered a range of issues related to
                  adverse events and patient safety, including the causes and frequency of
                  events, strategies for addressing events, and payment for related care.
                  In many cases, we had follow-up conversations with stakeholders later
                  during our study period.

                  In compiling the group of stakeholders, we sought to represent a broad
                  spectrum of interests and viewpoints. Interview respondents included
                  experts in adverse events from a variety of perspectives, including
                  national oversight, advocacy, and professional organizations, as well as
                  health plans, hospitals, and practitioners experienced in identifying and
                  addressing adverse events. Additionally, stakeholders included many
                  prominent researchers and policymakers in the field of patient safety,
                  including several members of the initial NQF committee that developed
                  the list of serious reportable events. We identified stakeholders for
                  interviews using a variety of sources, including:




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   8
I N T R O D       U C T         I O N

                  •     a list of patient safety entities and contacts provided by AHRQ’s
                        Center for Quality and Patient Safety, the National Patient Safety
                        Foundation, and the Joint Commission;

                  •     entities and contacts referenced in the literature; and

                  •     referrals from other stakeholders as our interviews progressed.

                  We completed interviews with 98 percent of the identified stakeholders
                  (78 of 80). For cases in which we were not able to interview the
                  identified stakeholders, we ensured that our list included stakeholders
                  from similar entities. For example, we interviewed staff from four State
                  agencies identified as exhibiting a range of approaches to patient safety
                  issues. The viewpoints of the individuals we interviewed do not
                  represent official positions of their organizations. We selected
                  representatives from each of the following broad groups. (For a list of
                  responding stakeholder entities, see Appendix D.)

                  •     Federal agencies—8 interviews

                  •     State agencies—4 interviews

                  •     Professional associations—10 interviews

                  •     Oversight/standard-setting organizations—5 interviews

                  •     Patient safety advocacy groups—7 interviews
                  •     Public policy groups—9 interviews

                  •     Providers (hospitals and networks)—28 interviews

                  •     Private Payers (managed care organizations)—4 interviews

                  •     University researchers—5 interviews
                  •     Service contractors 26 —5 interviews

                  Additional Data From Companion Study
                  In our discussion of State adverse event reporting systems on
                  pages 23–26, we use information about State policies and practices
                  collected for a companion study in this series, “Adverse Events in
                  Hospitals: State Reporting Systems” (OEI-06-07-00471). The data were
                  collected through interviews with and document requests of all States
                  and the District of Columbia between January and April 2008.


                      26 Service contractors include private entities that provide products or services to

                  hospitals that are related to patient safety or quality of care, such as adverse event
                  reporting software and medical record review.



OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                 9
I N T R O D        U C T     I O N

                    Data Analysis
                    Our analysis of information from literature and interviews focused on
                    four primary tasks:

                    •   identifying and refining key issues;

                    •   gathering expert opinions, insight, and evidence regarding these key
                        issues;

                    •   synthesizing this information to determine both prevailing and
                        countervailing viewpoints of stakeholders and literature; and

                    •   identifying examples to illustrate and clarify these points.

                    When we refer to stakeholder viewpoints in the report, these summary
                    statements represent the predominant viewpoint of the stakeholders
                    interviewed. Despite the range of viewpoints represented, we found a
                    great deal of agreement among stakeholders and the literature
                    regarding the status of current efforts to address adverse events in
                    hospitals. Where we found widespread agreement, the report provides
                    summary statements that reflect the predominant viewpoint of these
                    sources. Because of the variety of sources and the often nuanced
                    discourse regarding these complex issues, this report does not provide
                    stakeholder responses by percentage. Rather, the report includes
                    selected discussion and examples to illustrate the prevailing view or to
                    add insight. For examples of our analysis and quantified responses to
                    key questions, see Appendix E.

                    Limitations
                    In collecting information, we sought to include widely recognized
                    literature and stakeholders and to represent a wide variety of
                    viewpoints based on research and analysis. Additionally, the number of
                    potential stakeholders was very large, necessitating selection of
                    representatives to speak for each broader group of entities. As a result,
                    we may have excluded input that could have provided additional or
                    different insight.

                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   10
Δ   K K E E YY     I I SS SS UU EE S

                         _____________________________
                         Issue 1: Estimates of the incidence of adverse events in
                         hospitals vary widely and measurement is difficult
                         Most stakeholders reported that, although it is difficult to measure,
                         they perceive that the incidence remains close to that cited by IOM in
                         1999: roughly 3 percent of hospitalized patients experience adverse
                         events. No subsequent study has attempted to determine a broad,
                         national estimate of adverse events, such as was reported by IOM;
                         however, researchers have conducted a number of smaller studies
                         focusing on specific events and populations. These efforts have provided
                         a wide range of estimates—from less than 3 percent to greater than
                         20 percent of patients experiencing adverse events. See Appendix F for
                         examples of this research, including rates and methods. A number of
                         stakeholders reported that when discussing the incidence of adverse
                         events in general terms, they assume a slightly higher rate: 10 percent
                         of hospital stays involve some type of health care-related problem, with
                         about half (5 percent of hospital stays) resulting in some degree of harm
                         to the patient and thereby constituting an adverse event.

                         Research indicates that elderly patients have a greater number of
                         preexisting conditions and face greater risks of experiencing adverse
                         events. 27 Stakeholders reported that adverse events are more common
                         among the elderly because of the clinical complexity of their care,
                         including multiple medications, higher rates of surgery, and longer
                         hospital stays. Elderly are particularly vulnerable to medication-
                         related adverse events, in large part because of administration of
                         multiple medications. 28
                         Researchers use a variety of methods to measure incidence, but accurate
                         identification of events is challenging and no single method is optimal
                         Given the often complex nature of illness and injury, determining
                         whether an adverse event occurred can be difficult. Identifying adverse
                         events may require evaluating the prior condition of the patient;
                         determining what occurred in the delivery of health care; and


                            27 T. A. Brennan and E. J. Thomas, “Incidence and Types of Preventable Adverse Events

                         in Elderly Patients: Population Based Review of Medical Records,” BMJ, 320,
                         March 18, 2000, pp. 741–744. Available online at
                         http://www.bmj.com/cgi/reprint/320/7237/741. Accessed on October 10, 2008.
                           28 D. M. Picone, M. G. Titler, J. Dochterman, et al., “Predictors of Medication Error
                         Among Elderly Hospitalized Patients,” American Journal of Medical Quality, 23(2),
                         March–April 2008, pp. 115–127. Abstract available online at
                         http://www.ncbi.nlm.nih.gov/pubmed/18305099. Accessed on October 10, 2008.



      OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                11
K E Y       I S S U E S

                   distinguishing between the effect of the occurrence, the prior condition,
                   and any natural progression of an illness or injury. Stakeholders report
                   that this difficulty can be compounded in a hospital setting, with
                   patients receiving care from multiple caregivers and patients are
                   subject to intricate hospital systems. In some cases, patients and
                   caregivers may not be aware that an event occurred and therefore do
                   not record information useful for identifying the event retrospectively.

                   Entities that address adverse events sometimes categorize them by the
                   severity of harm incurred and may choose to focus on adverse events
                   with the greatest degree of harm. A commonly used scale of harm was
                   developed by the National Coordinating Council for Medication Errors
                   Reporting and Prevention (NCC MERP). 29 The scale classifies events
                   beginning with circumstances that have the capacity to cause error
                   (near miss) and escalating through levels of patient harm (prolonged
                   hospitalization, temporary disability) and eventually to patient death.
                   NQF’s list of serious reportable events and the Joint Commission’s list
                   of sentinel events include medication-related adverse events only when
                   the patient suffers serious disability or death. 30
                   Researchers and hospitals use various methods to determine the
                   incidence of adverse events and appear to have little agreement about
                   the most reliable method. Studies comparing the results of various
                   methods have found widely divergent outcomes. When researchers
                   attempted to find the same adverse events using different data
                   collection methods, results varied substantially. For example, one study
                   found that 8 percent of hospitalized patients reported an adverse event,
                   but only half of these events were documented in the medical record,
                   and none of the events were documented in the hospital incident
                   reporting system. 31 Comparisons of adverse event rates are difficult
                   because researchers may use different definitions and methods for
                   identifying adverse events. For example, only two specific adverse
                   events are characterized in the same way on all four of the prominent



                     29 The National Coordinating Council for Medication Error Reporting and Prevention,
                   “NCC MERP: The First Ten Years, Defining the Problem and Developing Solutions,”
                   December 2005, Figure 1, p. 29. Available online at
                   http://www.nccmerp.org/pdf/reportFinal2005-11-29.pdf. Accessed on October 10, 2008.
                     30 Sources referenced in footnotes 13 and 14 on p. 5.
                     31 S. N. Weingart, O. Pagovich, D. Z. Sands, et al., “What Can Hospitalized Patients Tell
                   Us About Adverse Events? Learning from Patient-Reported Incidents,” Journal of General
                   Internal Medicine, 20(9), 2005, pp. 830–836. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/16117751. Accessed on October 10, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES               12
K E Y       I S S U E S

                   lists referenced on page 5 (AHRQ, CMS, Joint Commission, and NQF):
                   object left in patient after surgery and blood incompatibility.
                   In some cases, events on different lists might cover the same
                   circumstances even though they are defined differently. For example,
                   the Joint Commission list of Sentinel Events includes the broad
                   definition of an event resulting in “unanticipated death or permanent
                   loss of function.” 32 The NQF list of Serious Reportable Events focuses
                   primarily on events that result in “death or serious disability,”
                   specifying the cause of the event, such as device contamination or
                   medication error (see Appendix C). 33 Additionally, CMS has taken
                   steps to analyze the relationship between the NQF list and the CMS
                   categories of hospital-acquired conditions. In proposing conditions to be
                   added to its list for FY 2009, a CMS press release indicated that the
                   NQF list was used to inform selection of the hospital-acquired
                   conditions. 34
                   Measurement challenges make it difficult to determine the actual
                   incidence of adverse events and to gauge progress in reducing them. In
                   general, stakeholders advocate routine monitoring through automated
                   methods to identify adverse events, followed by periodic use of more
                   extensive methods to confirm results and uncover potential causes.
                   Common methods include:

                   •     Administrative Data Screening. Automated programs can review
                         administrative data, such as payment claims and hospital discharge
                         data, to identify possible adverse events. For example, AHRQ
                         developed software programs to calculate its PSIs using
                         administrative data and distributes this software free of charge to
                         hospitals, oversight entities, and researchers. Using administrative
                         data allows researchers to screen for adverse events among large

                     32 The Joint Commission, “Sentinel Event Policy and Procedures,” Reviewable Sentinel
                   Events, updated July 2007, p. 3. Available online at
                   http://www.jointcommission.org/NR/rdonlyres/F84F9DC6-A5DA-490F-A91F-
                   A9FCE26347C4/0/SE_chapter_july07.pdf. Accessed on August 28, 2008.
                       33 NQF, “Serious Reportable Events in Health Care: 2005–2006 Update,”
                   October 16, 2006. Available online at
                   http://www.qualityforum.org/projects/completed/sre/fact-sheet.asp. Accessed on
                   August 28, 2008.
                     34 HHS, CMS, “Incorporating Selected NQF and Never Events into Medicare’s List of
                   Hospital-Acquired Conditions,” Press Release, April 14, 2008. Available online at
                   http://www.cms.hhs.gov/apps/media/press/factsheet.asp?Counter=3043&intNumPerPage=1
                   0&checkDate=&checkKey=&srchType=1&numDays=3500&srchOpt=0&srchData=&srchOp
                   t=0&srchData=&keywordType=All&chkNewsType=6&intPage=&showAll=&pYear=&year=
                   &desc=&cboOrder=date. Accessed on August 28, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES           13
K E Y       I S S U E S

                         numbers of cases and also provides a denominator for establishing a
                         rate of events. However, adverse events can be difficult to identify
                         using automated methods, and research indicates that screening
                         detects different types of adverse events at different rates. 35 The
                         newly required POA indicators will likely improve the effectiveness
                         of screening for adverse events within Medicare claims data.

                   •     Electronic Medical Record Surveillance. Routine surveillance of
                         medical records is an emerging technology that serves as an initial
                         screen to identify potential adverse events for further review.
                         Surveillance systems detect adverse events in medical records by
                         identifying unusual circumstances, such as prolonged
                         hospitalizations or administration of an antidote. Researchers
                         report optimism that advances in these systems will enable
                         hospitals to detect some adverse events as they occur. 36 However,
                         many hospitals lack computerized medical records and surveillance
                         systems can be expensive to implement. 37

                   •     Medical Record Review. Medical records typically provide more
                         complete information than administrative data regarding the impact
                         of an event by including information about the patient’s condition
                         prior to and following the event. However, researchers report that
                         records often have incomplete descriptions and insufficient
                         documentation. 38 Also, record reviews rely on the subjective
                         judgment of the reviewer, and conditions caused by adverse events
                         can be difficult to distinguish from preexisting conditions. To
                         improve validity, studies may rely on two or more reviewers to
                         confirm the results of each chart review; however, researchers in one

                       35 A. N. West, W. B. Weeks, and J. P. Bagian, “Rare Adverse Events in VA Inpatient
                   Care: Reliability Limits to Using Patient Safety Indicators as Performance Measures,”
                   Health Services Research, 2007, pp. 249–266. Available online at
                   http://www3.interscience.wiley.com/cgi-bin/fulltext/119390777/PDFSTART. Accessed on
                   October 10, 2008.
                       36 M. K. Szekendi, C. Sullivan, A. Bobb, et al., “Active Surveillance Using Electronic
                   Triggers to Detect Adverse Events in Hospitalized Patients,” Quality and Safety in Health
                   Care, 15, 2006, pp. 184–190. Available online at
                   http://qshc.bmj.com/cgi/content/full/15/3/184?rss=1. Accessed on August 10, 2008.
                     37 M. F. Furukawa, T. S. Raghu, T. J. Spaulding, and A. Vinze, “Adoption of Health
                   Information Technology for Medication Safety in U.S. Hospitals, 2006, Health Affairs, 27(3),
                   May–June 2008, pp. 865–875. Abstract available online at
                   http://content.healthaffairs.org/cgi/content/abstract/27/3/865. Accessed on October 10, 2008.
                       38 M. M. Rosenthal, P. L. Cornett, K. M. Sutcliffe, and E. Lewton, “Beyond the Medical
                   Record: Other Modes of Error Acknowledgment,” Journal of General Internal Medicine,
                   20(5), May 2005, pp. 404–409. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/15963161. Accessed on October 10, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   14
K E Y       I S S U E S

                         prominent study found moderate to poor interrater reliability
                         between reviewers. 39
                   •     Patient Surveys or Interviews. A number of studies have sought to
                         identify adverse events by asking patients and their families
                         whether they detected any problems during hospitalization,
                         typically through interviews or mail surveys. This information is
                         considered most useful when patients or families are asked about
                         events shortly after they occur. One study found that patients
                         contacted within 10 days of discharge identified more adverse events
                         affecting their care than medical record reviewers and hospital
                         incident reports. 40 Another study of medical errors received survey
                         responses from 2,000 hospital patients and found that 11 percent of
                         patients described problems but that, when verified against medical
                         records, only 2 percent described events that represented actual
                         medical errors. 41 Stakeholders indicated that potential drawbacks
                         with patient surveys include low response rate, poor recollection by
                         patients, and lack of understanding of adverse events.
                   •     Observation of Patient Care. Clinical observation relies on collecting
                         information during or immediately after the delivery of care.
                         Observational data can derive from direct clinical observation
                         (in person or by recording) and surveys of clinicians. Based on a
                         review of several studies using this method, observation typically
                         finds a higher incidence of adverse events than other methods and is
                         thought to provide more precise descriptions of adverse events than
                         other methods. 42 For example, one study of operating room
                         anesthesia found a 30-percent rate of adverse events identified


                       39 E. J. Thomas, D. M. Studdert, and T. A. Brennan, “The Reliability of Medical Record
                   Review for Estimating Adverse Event Rates,” Annals of Internal Medicine, 136(11),
                   June 2002, pp. 812–816. Available online at
                   http://www.annals.org/cgi/reprint/136/11/812.pdf?ijkey=0235f38f381989d08b8fb62bde3bf9f1
                   ae94951c. Accessed on October 10, 2008.
                       40 S. N. Weingart, O. Pagovich, D. Z. Sands, et al., “What Can Hospitalized Patients Tell
                   Us About Adverse Events? Learning from Patient-Reported Incidents,” 2005, pp. 830–836.
                   Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/16117751. Accessed on
                   October 9, 2008.
                     41 L. I. Solberg, S. E. Asche, and B. M. Averbeck, “Can Patient Safety Be Measured by
                   Surveys of Patient Experiences?” The Joint Commission Journal on Quality and Patient
                   Safety, 34(5). May 2008, pp. 266–274. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/18491690. Accessed on October 9, 2008.
                       42 J. M. Rothschild, C. P. Landrigan, J. W. Cronin, et al., “The Critical Care Safety
                   Study: the Incidence and Nature of Adverse Events and Serious Medical Errors in
                   Intensive Care,” Critical Care Medicine, 33, 2005, pp. 1694–1700. Abstract available online
                   at http://www.ncbi.nlm.nih.gov/pubmed/16096443. Accessed on October 10, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                  15
K E Y       I S S U E S

                       through a physician survey administered immediately following
                       surgery. 43 Drawbacks to observation of patient care reported by
                       stakeholders include high labor costs, the necessity for highly
                       trained observers, human error in recognizing adverse events, and
                       concerns about patient confidentiality.


                   _____________________________
                   Issue 2: Nonpayment policies for adverse events are
                   gaining in prominence and are viewed as a powerful
                   incentive to reduce incidence but raise potential
                   drawbacks
                   In 2008, CMS implemented policy to deny hospitals higher payment for
                   admissions complicated by selected adverse events. Stakeholders
                   reported their belief that policies of nonpayment to hospitals for care
                   associated with adverse events will put financial pressure on providers
                   to improve patient safety and reduce the incidence of adverse events.
                   They also reported that nonpayment may change clinical practice and
                   hospital procedures to more closely follow recommended guidelines for
                   quality of care and patient safety. 44 However, stakeholders cautioned
                   that nonpayment for adverse events may cause negative consequences,
                   such as limiting patients’ access to care and increasing costs to hospitals
                   while reducing revenue.
                   Private health care payers and hospitals are increasingly adopting
                   policies to eliminate payment for hospital-acquired conditions
                   A small number of hospitals and health plans instituted nonpayment
                   policies in previous years, but these policies are becoming more
                   widespread following the change in CMS policy. The first private health
                   plan to deny payment for hospital-acquired conditions, a single State
                   insurer with about 2 million enrollees, began its nonpayment policy in




                     43 A. Oken, M. D. Rasmussen, J. M. Slagle, et al., “A Facilitated Survey Instrument
                   Captures Significantly More Anesthesia Events Than Does Traditional Voluntary Event
                   Reporting,” Anesthesiology, 107(6), December 2007, pp. 909–922. Available online at
                   http://www.anesthesiology.org/pt/re/anes/pdfhandler.00000542-200712000-
                   00010.pdf;jsessionid=LyypRm2F9dD90HQ2mH2rh3HvpGQTDpppWhjlhXdNQgJkt9lHvqlp!
                   691622333!181195628!8091!-1. Accessed on October 9, 2008.
                     44 R. M. Wachter, N. E. Foster, and R. A. Dudley, “Medicare’s Decision to Withhold
                   Payment for Hospital Errors: The Devil is in the Details,” Joint Commission Journal on
                   Quality and Patient Safety, February 2008, 34(2), pp. 116–123. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/18351196. Accessed on October 9, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES              16
K E Y       I S S U E S

                   2005. 45 An increasing number of private health plans, including several
                   large national companies, announced plans in 2007 and 2008 to develop
                   nonpayment policies, although full implementation may be a year or
                   more away. Similarly, hospitals are increasingly adopting policies to
                   withhold billing for care associated with certain adverse events,
                   regardless of whether the payer is the government, a health plan, or the
                   patient. A 2007 hospital survey found that 52 percent of responding
                   hospitals (1,285 hospitals) had adopted this “no bill” policy, most within
                   the prior year. 46
                   Stakeholders predict that nonpayment policies will reduce health care
                   costs in the long term
                   Potential cost savings include both savings in government and
                   private-payer reimbursement owing directly to nonpayment and cost
                   savings found through reducing adverse events by way of improved
                   practices. This “business case for safety” argues that any costs
                   expended to improve patient safety are outweighed by the reduced
                   medical expenses, shorter recovery times, and higher quality of life for
                   patients who avoid harm (injury or illness) associated with an adverse
                   event. 47 Research indicates that the cost of adverse events is high and
                   that, prior to nonpayment policies, hospitals did not bear the impact of
                   these costs. A study of individual hospital costs found that the annual
                   cost of care associated with adverse drug events for a 700-bed hospital
                   was $5.6 million, 48 and a 2003 study aggregating costs across hospitals




                     45 Health Partners, Inc., “Health Partners Hospital Payment Policy: Never Events
                   Policy.” Available online at http://www.healthpartners.com/portal/866.html. Accessed on
                   September 8, 2008.
                     46 Healthcare Financial Management Association News, “Half of U.S. Hospitals
                   Reporting to Leap Frog Say They Won’t Bill for a ‘Never Event,’” September 28, 2007.
                   Available online at http://www.hfma.org/hfmanews/default,month,2007-09.aspx. Accessed
                   on September 8, 2008.
                     47 M. Mello, D. Studdert, E. Thomas, et al., “Who Pays for Medical Errors: An Analysis
                   of Adverse Event Costs, the Medical Liability System, and Incentives for Patient Safety
                   Improvement,” Journal of Empirical Legal Studies, 4(4), December 2007, pp. 835–860.
                   Available online at http://www3.interscience.wiley.com/cgi-
                   bin/fulltext/117994376/PDFSTART. Accessed on October 13, 2008.
                     48 D. W. Bates, N. Spell, D. J. Cullen, et al., “The costs of adverse drug events in
                   hospitalized patients,” the Journal of the American Medical Association, 277(4),
                   January 22, 2007, pp. 307–312. Abstract available online at http://jama.ama-
                   assn.org/cgi/content/abstract/277/4/307?ijkey=87ede15670fb1a6e28e177d75d105fde5d61dc1
                   7&keytype2=tf_ipsecsha. Accessed on October 13, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                17
K E Y         I S S U E S

                  estimated that certain medical injuries among hospitalized patients
                  nationwide result in excess charges of $9.3 billion annually. 49
                  Potential drawbacks of nonpayment could include limiting access to care
                  and increasing hospital costs while reducing revenue
                  The emergence of nonpayment policies has accelerated longstanding
                  debates regarding adverse events, such as how readily preexisting
                  conditions can be diagnosed and which parties are responsible for
                  additional health care costs resulting from adverse events.
                  Stakeholders raised the following potential drawbacks to nonpayment:
                  Limiting Access to Care. Stakeholders raised concern that to avoid
                  hospital-acquired conditions, hospitals may limit access for high-risk
                  patients. High-risk patients, such as the elderly, are likely to have
                  several ailments and therefore require more complicated care. Such
                  patients might be more likely to bring conditions into hospitals that are
                  easily missed (such as pressure ulcers) or to have poor outcomes of care
                  as a result of their compounded ailments and frailty.

                  Increased Hospital Costs. Hospitals anticipate initial cost increases as a
                  result of implementing nonpayment policies, including training and
                  systems costs to incorporate changes in processing claims and increased
                  costs in testing for and diagnosing conditions POA. Staff also voiced
                  concern that unilateral testing could lead to inappropriate treatment
                  that could place patients at clinical risk. For example, a physician
                  specializing in emergency care noted that it is common for elderly
                  patients to enter the hospital with mild urinary tract infections
                  unrelated to the primary conditions that require urgent care. A positive
                  test for infection could lead the clinician to administer antibiotics that
                  serve little clinical benefit but could put the patient at risk for
                  additional ailments, such as stomach ulcers, and could ultimately lead
                  to the emergence and spread of drug-resistant microorganisms, placing
                  patients and health care workers at risk. 50
                  Changes in Hospital Revenue. Hospitals could experience decreases in
                  revenue for some admissions at the same time as their costs rise.


                     49 C. Zahn and M. R. Miller, “Excess Length of Stay, Charges, and Mortality Attributable

                  to Medical Injuries During Hospitalization,” the Journal of the American Medical
                  Association, 290(14), October 8, 2003, pp. 1868–1874. Available online at http://jama.ama-
                  assn.org/cgi/content/full/290/14/1868. Accessed on October 9, 2008.
                    50 C. Edlund and C. E. Nord, “Effect on the Human Normal Microflora of Oral Antibiotics
                  for Treatment of Urinary Tract Infections,” Journal of Antimicrobial Chemotherapy,
                  Suppl. 46(S1), 2000, pp. 41–48. Available online at
                  http://jac.oxfordjournals.org/cgi/reprint/46/suppl_1/41. Accessed on October 10, 2008.



OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES               18
K E Y       I S S U E S

                   Hospitals will no longer be reimbursed for costs related to adverse events
                   and formerly covered by Medicare and health plans. For example, if a
                   Medicare patient entered a hospital with pneumonia and developed a
                   urinary tract infection during the hospitalization, the hospital would be
                   reimbursed approximately $6,254 under the prior payment system
                   (pneumonia with complications). Under the new rule, the hospital would
                   be reimbursed approximately $3,705 (simple pneumonia), a difference of
                   approximately 40 percent. 51 However, stakeholders in interviews and also
                   CMS 52 have estimated that because the revised CMS payment policy
                   provides for larger Medicare reimbursements for sicker patients by
                   considering complications and comorbidities in determining MS-DRGs,
                   hospitals might experience an overall increase in revenue.




                   Issue 3: Hospitals rely on staff and managers to report
                   adverse events internally, but barriers can inhibit
                   reporting
                   Hospital managers whom we interviewed typically rely on the staff
                   involved or department managers to report adverse events to hospital
                   quality improvement or risk management departments. Stakeholders
                   see routine reporting of adverse events as an important component of
                   improving patient safety. Reporting an adverse event is thought to
                   create a sense of transparency among providers, regulators, and
                   patients, fostering openness, communication, and accountability for
                   care. Reporting adverse events and suspected causes can help hospitals
                   develop improved practices to prevent recurrence and ensures
                   accountability for substandard care. Encouraging open staff reporting
                   was cited as part of a growing movement toward a “just culture” that
                   emphasizes systems problems over individual blame for mistakes. 53


                     51 M. B. Rosenthal, “Nonpayment for Performance? Medicare’s New Reimbursement
                   Rule,” The New England Journal of Medicine, 357(16), October 18, 2007, pp. 1573–1575.
                   Available online at http://content.nejm.org/cgi/reprint/357/16/1573.pdf. Accessed on
                   October 10, 2008.
                     52 CMS, Office of Public Affairs, Press Release, “CMS Proposes to Expand Program for
                   Hospital Inpatient Services in FY 2009,” April 14, 2008. Available online at
                   http://www.cms.hhs.gov/apps/media/press/release.asp?Counter=3041&intNumPerPage=10&
                   checkDate=&checkKey=&srchType=1&numDays=3500&srchOpt=0&srchData=&keywordT
                   ype=All&chkNewsType=1%2C+2%2C+3%2C+4%2C+5&intPage=&showAll=&pYear=&year
                   =&desc=false&cboOrder=date. Accessed on October 10, 2008.
                     53 R. M. Wachter, “Understanding Patient Safety,” McGraw–Hill, 2008, pp. 175–176.




 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES              19
K E Y       I S S U E S

                   Hospitals may conduct a root cause analysis (RCA) following a report of
                   an adverse event. The RCA is a focused review of systems and
                   processes to identify the basic or contributing factors that cause adverse
                   events. RCAs vary considerably in depth and detail, with
                   documentation and analysis sometimes including interview transcripts,
                   medical records, certification surveys, and billing data. Once it is
                   complete, the RCA results can be assessed by hospital managers or
                   quality improvement staff to help them develop a corrective action plan.
                   Hospitals may retain RCAs and corrective action plans internally or
                   submit them with supporting documentation to oversight entities.

                   Hospital staff whom we interviewed also reported using information
                   about adverse events to inform affected patients and family members,
                   which is thought to boost public trust and lead to improved clinical
                   decisionmaking and compliance in treatment. One study found that
                   providers disclosing information and accepting responsibility for
                   adverse events was often more important to patients and families than
                   receiving financial compensation. 54 Some health networks, including
                   the Veterans Health Administration, have formalized this effort
                   through “rapid response” teams that are required to immediately assess
                   adverse event reports, provide same-day information to patients and
                   families, and take action to mitigate harm and prevent recurrence. 55
                   Hospital staff may not report adverse events because they do not believe
                   reports lead to improvement, do not have time, or fear punitive action
                   Stakeholders, including hospital managers, indicated that hospital staff
                   do not report all adverse events, although estimates of how many
                   adverse events are not reported vary widely. In interviews, hospital
                   managers gave estimates as low as 5 percent of adverse events reported
                   to as high as “nearly 100 percent,” attributed to focused training on
                   identifying adverse events. Stakeholders reported the following reasons




                     54 L. L. Leape, “Full Disclosure and Apology: An Idea Whose Time Has Come,” Physician
                   Executive, March–April, 2006, pp. 24–26. Available online at
                   http://findarticles.com/p/articles/mi_m0843/is_2_32/ai_n16123939. Accessed on
                   October 9, 2008.
                     55 Veterans Health Administration, 2007 VHA Research Series, “Rapid Response Teams:
                   A Bridge Over Troubled Waters,” 2007. Available online at
                   http://www.vha.com/portal/server.pt/gateway/PTARGS_0_2_6781_1052_505725_43/http%3B
                   /ContentSrv.VHA.com%3B7087/publishedcontent/publish/vha_public/solutions/clinical_impr
                   ovement/docs/rrt_final.pdf. Accessed on October 10, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES          20
K E Y       I S S U E S

                   for not reporting in order of prominence (literature referenced provides
                   additional discussion): 56 57 58 59
                   •     lack of followup by responsible staff when reports are made,

                   •     lack of time to complete incident reports and documentation,

                   •     fear of punitive action against self or a colleague,

                   •     assumption that other involved staff will report,

                   •     failure to track care as patients move through multiple departments
                         and caregivers, and
                   •     difficulty in distinguishing adverse events from harm caused by
                         underlying disease.
                   Stakeholders also stressed the importance of hospitals taking action to
                   encourage staff to report adverse events through such measures as
                   strengthening enforcement, streamlining procedures, training staff on
                   reporting procedures, and ensuring confidentiality when possible.
                   Allowing anonymous reporting or ensuring confidentiality of reporters
                   has been shown to increase reporting, but can limit the usefulness of
                   reports because those analyzing the adverse events are not able to
                   follow up to clarify the event and possible causes. 60




                     56 IPRO, “Error Reporting Systems: Feedback and Communication,” Patient Safety
                   Tools: Information and Resources on Patient Safety for Health Care Providers Across New
                   York State, 1(5), Fall 2007. Available online at
                   http://providers.ipro.org/index/ps-newsletter-summer07. Accessed on October 13, 2008.
                       57 S. M. Evans, J. G. Berry, B. J. Smith, et al., “Attitudes and Barriers to Incident
                   Reporting: A Collaborative Hospital Study,” Quality and Safety in Health Care, 15, 2006,
                   pp. 39–43. Abstract available at http://qshc.bmj.com/cgi/content/abstract/15/1/39. Accessed
                   on October 13, 2008.
                     58 C. Conerly, “Strategies to Increase Reporting of Near Misses and Adverse Events,”
                   Journal of Nursing Care Quality, 22(2), April–June 2007, pp. 102–106.
                     59 J. A. Taylor, D. Brownstein, D. A. Christakis, et al., “Use of Incident Reports by
                   Physicians and Nurses to Document Medical Errors in Pediatric Patients,” Pediatrics,
                   114(3), September 2004, pp. 729–735. Available online at
                   http://pediatrics.aappublications.org/cgi/reprint/114/3/729. Accessed on October 13, 2008.
                       60 J. Stow, “Using Medical Error Reporting to Drive Patient Safety Efforts,” AORN
                   Journal: Association of periOperative Registered Nurses, September 2006, pp. 13–17.
                   Available online at http://findarticles.com/p/articles/mi_m0FSL/is_3_84/ai_n27000693.
                   Accessed on October 13, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   21
K E Y       I S S U E S

                   _____________________________
                   Issue 4: Hospitals report adverse events to various
                   oversight entities, although stakeholders suspect
                   substantial underreporting
                   Although no comprehensive national reporting system for adverse
                   events currently exists, various government agencies and other entities
                   receive adverse event reports from hospitals. These outside entities
                   typically require or request reports about only a subset of adverse
                   events, usually the most serious (such as wrong surgery) or those likely
                   to affect the broader hospital population (such as infections). For
                   example, the quality assurance director of one 102-bed hospital reported
                   receiving between 250 and 300 reports of adverse events or near
                   misses 61 a month from hospital staff, of which only “2 or 3” typically
                   meet severity levels requiring a report to the State or accrediting body.

                   IOM and other stakeholders advocate a two-tiered national system of
                   mandatory reporting of serious adverse events and voluntary reporting
                   of less serious adverse events and near misses because both systems
                   have unique advantages. 62 Mandatory reporting of serious events is
                   thought to ensure provider accountability for medical errors and
                   substandard care. Voluntary reporting can capture a broader range and
                   may uncover underlying problems more readily than a smaller number
                   of serious adverse events. Some researchers advocate reporting near
                   misses in particular, believing that because a person or system was in
                   place to prevent harm, they uncover not only the cause of potential
                   adverse events but possible solutions because harm was averted.
                   Including a broader range of adverse events, however, can make the
                   number of reports unmanageable. 63 One State modified its reporting
                   system from including all “unusual occurrences that threaten welfare,
                   safety, or health” to only the 28 adverse events on the NQF list,
                   reporting that the original was “too global” to be administered well. 64


                     61 A near miss is an event or a situation that did not result in patient injury, but only

                   because of intervening factors, such as patient health or timely intervention.
                     62 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is Human: Building a
                   Safer Health System.” A Report of the Committee on Quality of Health Care in America,
                   Institute of Medicine, Washington, DC, National Academy Press, 1999.
                     63 T. A. Brennan, A. Gawande, E. Thomas, and D. Studdert, “Accidental Deaths, Saved
                   Lives and Improved Quality, Sounding Board,” The New England Journal of Medicine,
                   353(13), September 29, 2005. Available online at
                   http://content.nejm.org/cgi/reprint/353/13/1405.pdf. Accessed on October 10, 2008.
                     64 Stakeholder interview with staff of the California Department of Health, January
                   2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                    22
K E Y       I S S U E S

                   State Reporting Systems. Public health departments in 25 States and
                   the District of Columbia operate adverse events reporting systems. 65
                   States may also have systems targeted toward specific events; for
                   example, the Government Accountability Office reported in 2008 that
                   23 States require mandatory reporting of health care-associated
                   infections in hospitals. 66 States typically require that adverse events be
                   reported within a specific timeframe. They may also require that
                   hospitals submit the RCA results along with the adverse event report
                   and a corrective action plan that outlines how the hospital plans to
                   address the problem. State staff reported using information in a variety
                   of ways, including issuing periodic alerts to caution providers about
                   specific problems and trends, reporting to the public as a hospital
                   quality measure, and routing information about the most egregious
                   adverse events to State oversight agencies.

                   National Reporting Systems. Two Federal agencies operate national
                   reporting systems—CDC and the Food and Drug Administration (FDA)
                   —and a variety of accreditation, oversight, and advocacy groups operate
                   additional systems. Some of these national reporting systems collect
                   information on a full range of adverse events, such as the Joint
                   Commission’s Sentinel Event Reporting System and the Veterans
                   Health Administration’s Patient Safety Reporting System. Others focus
                   on particular types of adverse events. For example, FDA operates
                   systems that monitor adverse events associated with drugs, medical
                   devices, vaccines, and blood products, and CDC operates a system to
                   monitor health care-associated infections and comanages the vaccine
                   system with FDA.

                   Patient Safety Organizations. The Patient Safety and Quality
                   Improvement Act of 2005 (Patient Safety Act) established a national
                   network of Patient Safety Organizations (PSO), certified by HHS, to,
                   among other tasks, accept voluntary reports of adverse events from
                   hospitals. 67 Further, HHS must develop common formats that PSOs
                   can choose to use for reporting information and must maintain a




                     65 OIG analysis of interviews and documentation from all States and the District of

                   Columbia, collected January–April, 2008.
                     66 Government Accountability Office, “Health-Care-Associated Infections in Hospitals:
                   An Overview of State Reporting Programs and Individual Hospital Initiatives to Reduce
                   Certain Infections,” September 2008, p. 2. Available online at
                   http://www.gao.gov/new.items/d08808.pdf. Accessed on October 10, 2008.
                     67 P.L. No. 109-41, § 923 (July 29, 2005).




 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                23
K E Y       I S S U E S

                   national database to analyze adverse events reported by PSOs. 68 (The
                   Patient Safety Act provides Federal legal privilege and confidentiality
                   protections for reported information. 69 ) A variety of entities, including
                   hospital networks and health plans, are expected to submit applications
                   to serve as PSOs in 2009 and to be operational by 2010. AHRQ is
                   tasked with reviewing these applications, determining which entities
                   will serve as PSOs, and developing operational guidelines (including
                   common definitions for adverse events). PSOs will have flexibility in
                   developing policies and practices and will receive no Federal funding.

                   Some stakeholders expressed concerns regarding PSO implementation,
                   including hospitals that may be reluctant to pay contract costs for PSOs
                   when many already report to States; analysis of adverse event
                   information reported by PSOs may be difficult because the PSOs are not
                   required to use the common formats for defining adverse events; and
                   hospitals may report the same adverse events to multiple PSOs, causing
                   duplicate reports that could skew aggregated data.
                   Stakeholders indicate that adverse events are underreported and that
                   oversight entities may not have mechanisms to promote compliance
                   Stakeholders suspect substantial underreporting of adverse events to
                   outside entities, although it is difficult to know the extent to which
                   adverse events go unreported. Underreporting could result from the
                   range of barriers and disincentives to report and the inherent difficulty
                   in recognizing all adverse events, such as those resulting in only
                   temporary harm to the patient. Stakeholders question whether the
                   value of reporting systems is worth the administrative costs,
                   particularly when the entity that receives reports does not reciprocate
                   by providing information for improving quality of care.

                   The number of reports received by various oversight entities varies
                   substantially. For example, States reported that they received as few as
                   6 and as many as 16,000 reports in 2006. 70 One State that collects
                   reports for events on the NQF list of Serious Reportable Events received
                   125 reports for approximately 2.8 million patient days between




                     68 PSO regulations were developed jointly by AHRQ and the Office of Civil Rights.
                   Proposed regulations were published February 12, 2008, (73 Fed. Reg. 8112) and are
                   expected to be final by early 2009.
                     69 P.L. No. 109-41, § 922 (July 29, 2005).
                     70 OIG analysis of interviews and documentation from all States and the District of
                   Columbia, collected January–April 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES              24
K E Y       I S S U E S

                   October 2006 and October 2007. 71 National reporting systems also
                   indicate a wide range in the number of reports that they receive from
                   hospitals. For example, an FDA source estimated that 10 percent of
                   adverse drug events are reported to its reporting system, Medwatch,
                   and also expressed concern that many reports are of “poor quality”—
                   incomplete and poorly documented. 72 Officials at the Joint Commission
                   estimate that its voluntary Sentinel Event Reporting System captures
                   only “1/10th of 1 percent” of sentinel events that occur in accredited
                   hospitals. 73
                   Detailed and duplicative reporting requirements may also lead to
                   underreporting. Hospitals are often required to report adverse events—
                   sometimes the same event—to several different entities, which hospital
                   staff indicated takes considerable staff time and effort. For example, in
                   one State, a single adverse event involving a medication error may
                   require reporting to eight different entities, each with different
                   reporting mechanisms and standards. Further, some oversight entities
                   require substantial information for each reported event, such as an
                   RCA, a corrective action plan, staff surveys, and medical records.

                   Stakeholders raised concern that even prominent oversight entities
                   have limited ability to ensure that serious adverse events are reported
                   consistently and accurately. This was thought to be in part because
                   several key reporting systems have only voluntary reporting, and also
                   because there may be subjectivity in determining what conditions are
                   reported. Even when reporting is mandatory, systems may have little
                   active oversight and enforcement. Hospitals can have few incentives to
                   report adverse events, particularly when reporting involves risks of
                   disclosure and punitive action. 74 Stakeholders indicated that oversight
                   entities do not know the extent of underreporting, so they cannot


                     71 Minnesota Department of Health, “Adverse Health Events in Minnesota: Fourth

                   Annual Public Report,” January 2008, p. 9. Available online at
                   http://www.health.state.mn.us/patientsafety/ae/aereport0108.pdf. Accessed on July 3, 2008.
                     72 Board on Health Sciences Policy, “Adverse Drug Event Reporting: The Roles of
                   Consumers and Health-Care Professionals,” 2007. Available online at
                   http://books.nap.edu/openbook.php?record_id=11897&page=14. Accessed on
                   October 10, 2008.
                     73 Stakeholder interviews with staff of the Joint Commission, March and
                   September 2007.
                     74 J. S. Weissman, C. L. Annas, A. M. Epstein, et al., “Error Reporting and Disclosure
                   Systems: Views from Hospital Leaders,” the Journal of the American Medical Association,
                   293(11), March 16, 2005, pp. 1359–1366. Abstract available online at http://jama.ama-
                   assn.org/cgi/content/abstract/293/11/1359. Accessed on October 13, 2008.




 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                 25
K E Y       I S S U E S

                   determine whether analysis of reported information is an accurate
                   characterization of adverse events.
                   Many researchers indicated that full reporting of all adverse events may
                   be less useful than receiving detailed reports of fewer adverse events
                   Many stakeholders conducting research in adverse events assert that it
                   is more important for quality improvement to receive detailed
                   information about reported adverse events, such as the results of RCAs,
                   than to ensure reporting of all adverse events. These researchers
                   maintained that counting particular adverse events is not as critical as
                   the underlying problems within hospital processes that resulted in the
                   specific events. Because of underreporting, the number of reported
                   adverse events is not considered to be a reliable measure of the incidence
                   of adverse events in hospitals. Researchers note that counting types of
                   adverse events can contribute to faulty analysis of problems because it
                   does not concentrate on the underlying systems or actions, which they
                   view as more important to the goal of reducing adverse events. For
                   example, two medication errors might be counted together for a study of
                   incidence, although one is caused by poor product labeling and the other
                   by poor communication between nurses and pharmacists.


                   _____________________________
                   Issue 5: Public disclosure of adverse events can benefit
                   patients, but also raises legal concerns for patients and
                   providers
                   Much debate goes on regarding disclosure of adverse event information
                   to affected patients and families, oversight entities, and the public.
                   Hospital disclosure of adverse event information can be highly beneficial
                   and is viewed by many stakeholders as an ethical obligation among
                   health care providers. However, disclosure can have legal ramifications
                   for both patients and providers.
                   Disclosure of adverse event information can assist patients in making
                   decisions about care and pressure hospitals to improve patient safety
                   Stakeholders indicated that public disclosure of adverse events by
                   hospitals or oversight entities can provide benefits to patients. Access
                   to event information may allow patients to make informed decisions
                   about treatment, and may also provide public scrutiny that could
                   pressure hospitals to improve prevention practices. IOM has promoted
                   public disclosure as a principal goal of adverse event reporting,



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   26
K E Y       I S S U E S

                   particularly for the most serious adverse events. 75 Most State reporting
                   systems have traditionally released adverse event data received from
                   hospitals, although in aggregate and deidentified form. 76 At least one
                   State provides a searchable Internet database that displays reported
                   adverse events for individual hospitals. 77
                   Hospitals, clinicians, and patients can lose legal protections when
                   adverse event information is reported outside the hospital
                   Stakeholders indicated that legal liability can impose constraints on
                   disclosure of adverse event information to outside reporting entities.
                   In-hospital systems are typically subject to State legal provisions,
                   known as peer review protections, which protect information shared
                   within hospitals for quality improvement purposes. This could include,
                   for example, information disclosed in an adverse event report or
                   discussed in meetings among hospital physicians and staff.

                   However, this protection may be lost if information is transmitted
                   outside an individual hospital. Some outside systems allow for
                   anonymous reporting to reduce the implication of individuals, but
                   according to one stakeholder serving as a risk manager in a large urban
                   hospital, this protection may not be useful if the event was serious and
                   well-known. Other reporting systems do not purport to maintain
                   confidentiality, other than protecting the identity of patients, and in
                   some cases publicly disclose adverse events. Hospitals potentially
                   report information to many entities, such as professional licensing and
                   accrediting bodies, State health departments, and patients and families.
                   This disclosure to many entities, which one stakeholder called a
                   “leaking sieve” of information, can increase the likelihood that
                   individual cases are known and result in loss of patient
                   confidentiality. 78



                     75 L. T. Kohn, J. M. Corrigan, and M. S. Donaldson, eds., “To Err is Human: Building a
                   Safer Health System.” A Report of the Committee on Quality of Health Care in America,
                   Institute of Medicine, Washington, DC, National Academy Press, 1999.
                      76 M. Marchev, “Medical Malpractice and Medical Error Disclosure: Balancing Facts and
                   Fears,” National Academy for State Health Policy, December 2003, p. 10. Available online
                   at http://www.nashp.org/Files/Medical_Malpractice_and_Medical_Error_Disclosure.pdf.
                   Accessed on October 9, 2008.
                     77 Adverse Health Events Reporting, Minnesota Department of Health, Database.
                   Available online at http://www.health.state.mn.us/patientsafety/adverseselect.cfm.
                   Accessed on October 9, 2008.
                     78 Proposed PSO regulations at 73 Fed. Reg. 8112 (Feb. 12, 2008) would require that
                   information reported to PSOs by providers receive significant legal protections through both
                   legal privilege and confidentiality requirements.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES               27
K E Y       I S S U E S




                   Issue 6: Information to help prevent adverse events is
                   widely available, but some hospitals and clinicians may
                   be slow to adopt or routinely apply recommended
                   practices
                   Information about methods to improve patient safety is considered
                   readily accessible to clinicians and hospitals because of the efforts of
                   active professional associations and government and private entities to
                   improve health care quality. There is substantial debate about which
                   adverse events are considered preventable, but little question that the
                   use of recommended guidelines can improve patient safety. Current
                   policy and practice, including CMS’s nonpayment policy, hold hospitals
                   accountable for conditions that “could be reasonably prevented by using
                   readily available evidence-based guidelines.”79 Still, studies indicate
                   that hospitals and clinicians may be slow to implement or to fully
                   integrate recommended practices (such as evidence-based clinical
                   practice guidelines).
                   Strategies and guidelines to help prevent adverse events often focus on
                   improving complex hospital systems and processes
                   Patient safety research shows that some adverse events can be the
                   result of breakdowns in systems as well as individual human error. 80
                   The systems approach to improving patient safety emphasizes the
                   interaction between medical systems (e.g., protocols, devices, and
                   infrastructure) and individual practitioners. A systems approach
                   advocates both improving the tools at the disposal of health care
                   providers, such as by automating health records, providing clear
                   medication labels, and creating checks to catch problems or errors
                   before they cause harm. (This approach aligns with the idea introduced
                   previously of a “just culture,” aspiring to full disclosure of adverse
                   events by focusing on systemic issues rather than individual blame.)

                   The underpinning of this system approach is recognition of the
                   complexity of modern health care and the difficulty even for highly
                   trained clinicians of considering all information. For example, one
                   article describes a study that found patients in an intensive care unit

                     79 DRA, § 5001(c), P.L. No. 109-171 (adding Social Security Act, § 1886(d)(4)(D)),
                   provided for a quality adjustment in DRG payments for certain hospital-acquired
                   conditions.
                     80 R. M. Wachter, “Understanding Patient Safety,” McGraw–Hill, 2008, pp. 17–26.




 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES             28
K E Y       I S S U E S

                   required an average of 178 different actions per day. 81 As one clinician
                   points out, the number of potential mistakes is so high and the potential
                   impact is so great that “even a 99.9 percent level of proficiency may not
                   be adequate” to ensure patient safety. Stakeholders and literature gave
                   examples of positive results from the systems approach, particularly
                   when efforts addressed specific needs. For example, anesthesiologists
                   nationally have reduced the number of adverse events associated with
                   administration of anesthesia by targeting and addressing systems
                   breakdowns, 82 and the Veterans Health Administration has reduced
                   medication errors by as much as 86 percent by adopting medication
                   barcoding. 83
                   Following recommended guidelines, which are readily accessible to
                   hospitals and clinicians, can help prevent adverse events and improve
                   quality of care
                   As the issue of patient safety has gained prominence, a number of
                   entities have targeted clinical solutions and recommended practices to
                   improve safety and reduce the occurrence of certain adverse events.
                   National entities have launched substantial patient safety efforts that
                   focus on this technical assistance, including the following:

                   •     IOM identified 20 diseases and clinical conditions that may be
                         significantly improved or effectively managed by using best practice
                         treatment guidelines. 84




                     81 A. Gawande, “Annals of Medicine: The Checklist,” The New Yorker, 83,
                   December 10, 2007, pp. 86–95. Available online at
                   http://www.newyorker.com/reporting/2007/12/10/071210fa_fact_gawande?printable=true.
                   Accessed on October 10, 2008.
                       82 D. M. Gaba, “Anaesthesiology as a Model for Patient Safety in Health Care,” BMJ,
                   March 18, 2000, 320, pp. 785–788. Available online at
                   http://www.bmj.com/cgi/content/full/320/7237/785. Accessed on October 20, 2008.
                   J. B. Cooper, “An Analysis of Major Errors and Equipment Failures in Anesthesia
                   Management: Considerations for Prevention and Detection.” Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/6691595. Accessed on October 20, 2008.
                       83 M. Glabman, “Health Plans Can Learn from VHA Turnaround: While Plans,
                   Hospitals, and Physician Groups Talk the Talk, the Veterans Health Administration is
                   Walking the Walk,” Managed Care Magazine, 16(2), February 2007, pp. 26–29, 34–36, and
                   38. Available online at
                   http://www.managedcaremag.com/archives/0702/0702.veterans.html. Accessed on
                   August 28, 2008.
                       84 K. Adams and J. M. Corrigan, eds., Committee on Identifying Priority Areas for
                   Quality Improvement, “Priority Areas for National Action: Transforming Health Care
                   Quality,” Institute of Medicine, Washington, DC, 2003. Available online at
                   http://www.ahrq.gov/qual/iompriorities.htm. Accessed on October 13, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                29
K E Y       I S S U E S

                   •     A patient safety advocacy group began providing free onsite
                         assistance to hospitals launching safety interventions, including
                         clinician assistance and analysis of results. 85
                   •     AHRQ released 17 Patient Safety Toolkits that are publicly
                         available and are designed to help practitioners, hospital managers,
                         and patients reduce certain adverse events. 86
                   Evidence-based clinical practice guidelines, generated by systematic and
                   evidentiary research, have been shown to be highly effective in preventing
                   certain adverse events, particularly in the area of infection control.
                   Statutory criteria for CMS selection of categories of hospital-acquired
                   conditions for which hospitals would not be paid for more expensive DRGs
                   include the provision that the conditions be reasonably preventable using
                   readily available evidence-based guidelines. 87 In many cases, such
                   practices are straightforward and can be implemented with little or no
                   cost. For example, a study of hospital intensive care units found that
                   using a checklist of safety steps when inserting central line catheters,
                   including draping patients’ entire bodies instead of only affected areas,
                   reduced the incidence of line infections nearly to zero, preventing an
                   estimated 43 infections, and eight deaths, and saving nearly $2 million per
                   hospital. 88
                   Some hospitals and clinicians can be slow to adopt or routinely apply
                   recommended practices to prevent certain adverse events
                   A number of studies indicate that hospital implementation of
                   recommended practices can be slow and that not all guidelines are
                   practiced widely. For example, one study found that an average of
                   17 years is needed before new knowledge generated through research
                   becomes incorporated into widespread clinical practice. 89 Further


                       85 Institute for Healthcare Improvement, “Overview of the Five Million Lives Campaign,”
                   2006. Available online at
                   http://www.ihi.org/IHI/Programs/Campaign/Campaign.htm?TabId=1. Accessed on
                   August 28, 2008.
                     86 AHRQ, Patient Safety Tools: Improving Safety at the Point of Care. Program Brief.
                   AHRQ Publication No. 08-P006, revised April 2008. Available online at
                   http://www.ahrq.gov/qual/pips/pstoolsbrf.htm. Accessed on September 8, 2008.
                       87 DRA, P.L. No. 109-171 § 5001(c), amends the Social Security Act, § 1886(d)(4).
                       88 S. M. Berenholtz, P. J. Pronovost, P. A. Lipsett, et al., “Eliminating Catheter-Related
                   Bloodstream Infections in the Intensive Care Unit,” Critical Care Medicine, 32(10),
                   October 2006, pp. 2014–2020. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/15483409. Accessed on October 10, 2008.
                       89 AHRQ, “Closing the Quality Gap: A Critical Analysis of Quality Improvement
                   Strategies Fact Sheet,” AHRQ Publication No. 04-P014, March 2004. Available online at
                   http://www.ahrq.gov/clinic/epc/qgapfact.htm. Accessed on August 28, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   30
K E Y       I S S U E S

                   research indicates that a large number of hospitals do not routinely
                   practice all patient safety precautions. As recently as 2001, AHRQ
                   reported that a sample of hospitals did not routinely perform the
                   11 interventions that researchers deemed most critical to improving
                   patient safety, such as administering antibiotics prior to surgery. 90
                   Additionally, a survey of 1,256 hospitals in 2007 indicated that only
                   25 percent followed all 27 safe practices guidelines established by NQF
                   and only 13 percent followed all guidelines related to preventing
                   common infections. 91 Moreover, studies have shown that clinicians
                   often do not comply with some of the most fundamental patient safety
                   measures; one study found that hospital physicians wash their hands
                   about half as often as is recommended while providing care. 92
                   One explanation for slow adoption of recommended guidelines is that
                   some hospitals and clinicians may perceive guidelines as not being
                   practical in the “real world.” For example, although surgical units
                   might count the number of sponges used during surgery to ensure that
                   none is retained, in the case of an injured patient, ambulance and
                   emergency room staff may employ an unknown number of sponges in
                   stabilizing the patient prior to surgery. Hospitals may also lack the
                   infrastructure to implement new strategies, particularly if the strategy
                   requires new technology. Further, patient safety provisions may have
                   countervailing implications, as in the example of limiting resident work
                   hours. Accreditation bodies set standards in 2003 to limit medical
                   residents’ hours to 80 per week to combat fatigue, 93 but one study found

                     90 AHRQ, “Making Health Care Safe: A Critical Analysis of Patient Safety Practices,”
                   Chapter 57: Practices Rated by Strength of Evidence, 2001. Available online at
                   http://www.ahrq.gov/clinic/ptsafety/. Accessed on August 28, 2008.
                     91 The Leapfrog Group, “41 Hospitals are Designated ‘Leapfrog Top Hospitals’ for 2007,
                   Significant Gaps in Safety and Quality Practices Among Other Hospitals Still the Norm,”
                   September 18, 2007. Available online at
                   http://www.leapfroggroup.org/media/file/Release_2007_Leapfrog_Survey_and_Top_Hospital
                   s_9-18.pdf. Accessed on October 10, 2008. The Leapfrog Group, “87 Percent of U.S.
                   Hospitals Do Not Take Recommended Steps to Prevent Avoidable Infections,”
                   September 10, 2007. Available online at
                   http://www.leapfroggroup.org/media/file/Leapfrog_hospital_acquired_infections_release.pdf.
                   Accessed on October 10, 2008.
                     92 D. Pittet, A. Simon, S. Hugonnet, C. L. Pessoa-Silva, and V. Sauvan, “Hand Hygiene
                   Among Physicians: Performance, Beliefs, and Perceptions,” Annals of Internal Medicine,
                   141(1), July 6, 2004, pp. 1–8. Available online at
                   http://www.annals.org/cgi/reprint/141/1/1.pdf. Accessed on October 9, 2008.
                     93 Accreditation Council for Graduate Medical Education, Common Program
                   Requirements, Chapter VI: “Resident Duty Hours in the Learning and Working
                   Environment,” updated February 2007, effective July 1, 2007. Available online at
                   http://www.acgme.org/acWebsite/dutyhours/dh_ComProgrRequirmentsDutyHours0707.pdf.
                   Accessed on October 9, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                31
K E Y       I S S U E S

                   that clinicians perceive limiting shift lengths can cause a greater
                   incidence of medical errors resulting from loss of continuity in care. 94
                   Studies also indicate that clinicians may also be slow to incorporate
                   lessons from their own experiences, treating adverse events as isolated
                   incidents and arguing that individual practitioner ingenuity is more
                   important than regimented standards of care. 95 Researchers explain
                   that these clinicians may also believe that systems improvements, such
                   as computerized decision support systems, can suppress the knowledge,
                   experience, and judgment of the practitioner. Adding to this, physicians
                   are usually independent of the hospital and may not have to meet
                   hospital training or operational standards.


                   ____________________________
                   Issue 7: Interviews and literature reveal strategies that
                   may accelerate progress in reducing the incidence of
                   adverse events in hospitals
                   Stakeholders described the current environment among hospitals and
                   policymakers as being on the verge of accelerating progress and
                   indicated that with continued focus, hospitals can reduce the overall
                   incidence of adverse events and improve quality of care. Information
                   from interviews and literature suggests the following strategies:

                   •     Assessing the desirability and feasibility of a national body to lead
                         patient safety efforts. This could entail evaluating the impact of
                         involved organizations and determining what tasks a national
                         coordinating body might perform. Stakeholders described adverse
                         events as “a public health issue” that demands an aggressive agenda
                         and active policy enforcement. They indicated that current efforts


                       94 J. S. Myers, L. M. Bellini, J. B. Morris, et al., “Internal Medicine and General Surgery

                   Residents’ Attitudes About the ACGME Duty Hour Regulations: A Multi-Center Study, “
                   Academic Medicine, 81(12), December 2006, pp. 1017–1020. Available online at
                   http://www.academicmedicine.org/pt/re/acmed/pdfhandler.00001888-200612000-
                   00008.pdf;jsessionid=LyBMNyx0pk10K8sRJs2DmTQD5DPJRQXSnjtJrS7yrGmdv7LKhXgl!
                   475884353!181195629!8091!-1. Accessed on October 9, 2008.
                       95 F. B. Garfield and J. M. Garfield, “Clinical Judgment and Clinical Practice
                   Guidelines,” International Journal of Technology Assessment in Health Care, 16, 2000,
                   pp. 1050–1060. Abstract available online at
                   http://www.ncbi.nlm.nih.gov/pubmed/11155827. Accessed on October 13, 2008.
                   S. J. Genuis, “The Proliferation of Clinical Practice Guidelines: Professional Development
                   or Medicine-by-Numbers,” Journal of the American Board of Family Medicine, 18(5),
                   September–October 2005, pp. 419–425. Available online at
                   http://www.jabfm.org/cgi/reprint/18/5/419. Accessed on October 13, 2008.



 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   32
K E Y       I S S U E S

                       by government agencies and private entities are necessary and
                       useful but may not be sufficient to ensure patient safety; and that a
                       national body could coordinate, but not replace, these efforts.

                   •   Focusing on hospital use of recommended practices and
                       evidence-based clinical practice guidelines to reduce the incidence of
                       adverse events, including further promulgating these practices,
                       measuring hospital use, and improving information sharing.

                   •   Establishing methods for measuring the incidence of adverse events,
                       including a practical and accurate data collection method for routine
                       measurement.

                   •   Expanding the use of electronic health records within and among
                       hospitals and other health care settings. Stakeholders reported that
                       widespread use of electronic health records would enhance
                       communication, improving continuity of care and potentially
                       reducing the incidence of adverse events.

                   •   Monitoring and analyzing the impact of policies to deny hospitals
                       higher payment for admissions complicated by selected adverse
                       events, including hospital and payer implementation, the incidence
                       of adverse events, access to health care, and health care costs.

                   •   Improving the utility of adverse event reporting to outside entities,
                       including evaluating the comparability of data reported across
                       entities and streamlining reporting mechanisms to reduce burdens
                       to hospitals.




 OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   33
Δ   S U M M A R Y


                  Our interviews with stakeholders and review of literature indicate that
                  the incidence of adverse events poses a problem in hospitals,
                  particularly among the elderly. A number of barriers exist to reducing
                  the incidence of adverse events, including confusion over how adverse
                  events are defined and identified, underreporting of events, and legal
                  concerns regarding the disclosure of events. Further, challenges
                  associated with accurately measuring the incidence of adverse events
                  make it difficult to assess progress and to direct future research and
                  policy efforts.

                  The extensive range of entities involved in researching and addressing
                  adverse events indicates that solving the problem is a high priority for
                  policymakers, patients, and providers. Stakeholders described the
                  current environment among hospitals and policymakers as being on the
                  threshold of accelerated progress and said that with continued focus,
                  hospitals can reduce the incidence of adverse events and improve
                  quality of care. They point to a large body of clinical and policy research
                  that has improved the understanding of adverse events, including
                  recognition of the critical role of hospital systems in guarding against
                  them. Additionally, new policies, such as nonpayment for care
                  associated with adverse events and public disclosure of events,
                  strengthen hospitals’ incentives to develop safer practices. These
                  advancements in clinical understanding, combined with heightened
                  controls, hold promise for reducing the incidence of adverse events in
                  hospitals and improving the quality of care.

                  This overview of key issues is one of a series of OIG reports designed to
                  respond to the congressional mandate to inform Congress about policies
                  and practices critical to addressing adverse events. Other OIG studies
                  focus on estimating the incidence of adverse events among Medicare
                  beneficiaries, State efforts to operate adverse event reporting systems,
                  Medicare beneficiaries receiving potentially inappropriate drug pairs
                  that may reflect medication errors, and hospital actions to address and
                  prevent adverse events.




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   34
Δ      A G E N C Y                 C O M M E N T S


                  We received comments on a draft of this report from AHRQ and CMS.

                  AHRQ concurred with the report’s findings.

                  CMS commended OIG on succinctly capturing the numerous issues
                  surrounding this complex topic, acknowledged technical assistance
                  provided to OIG in conducting this study, and indicated that it
                  welcomed continued work with OIG on this issue.

                  CMS reiterated its policies to encourage the prevention of adverse
                  events that are enumerated in the report, including quality
                  measurement and reporting, financial initiatives, and program
                  oversight. Regarding financial incentives, CMS outlined the provision
                  to deny payment for care associated with hospital-acquired conditions,
                  noting that OIG’s work is supportive of and will enable more effective
                  CMS implementation of the provision. CMS agreed with the report’s
                  conclusion that nonpayment for care associated with adverse events
                  strengthens hospitals’ incentives to develop safety practices and reduces
                  health care costs in the long term.

                  CMS also addressed the three potential drawbacks of nonpayment
                  policies raised by stakeholders: limiting access to care, increasing
                  hospital costs, and changes in hospital revenue. CMS indicated that it
                  will monitor the impact of implementation of the nonpayment provision
                  but believes that these drawbacks are unlikely to occur. CMS provided
                  further discussion to support this viewpoint, stating that more precise
                  payment for high-risk patients will likely offset incentives to limit
                  access to care, increased hospital costs to implement safety provisions
                  will likely be offset by savings resulting from fewer complications, and
                  decreases in hospital revenue will likely be minimal because CMS will
                  continue to assign a discharge to a higher paying MS-DRG if the
                  selected hospital-acquired condition is present on admission.

                  For the full text of AHRQ and CMS comments, see Appendix G.




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   35
Δ   A P P E N D I X                        ~            A



          TAX RELIEF AND HEALTH CARE ACT OF 2006 96
          P.L. No. 109-432

          DIVISION B – MEDICARE AND OTHER HEALTH PROVISIONS
          TITLE II—MEDICARE BENEFICIARY PROTECTIONS
          SEC 203 OIG STUDY OF NEVER EVENTS

          (a) Study.—

          (1) In general.—The Inspector General in the Department of Health and Human
          Services shall conduct a study on—

          (A) incidences of never events for Medicare beneficiaries, including types of such
          events and payments by any party for such events;

          (B) the extent to which the Medicare program paid, denied payment, or recouped
          payment for services furnished in connection with such events and the extent to
          which beneficiaries paid for such services; and

          (C) the administrative processes of the Centers for Medicare & Medicaid Services
          to detect such events and to deny or recoup payments for services furnished in
          connection with such an event.

          (2) Conduct of study.—In conducting the study under paragraph (1), the
          Inspector General—

          (A) shall audit a representative sample of claims and medical records of Medicare
          beneficiaries to identify never events and any payment (or recouping of payment)
          for services furnished in connection with such events;

          (B) may request access to such claims and records from any Medicare contractor;
          and

          (C) shall not release individually identifiable information or facility-specific
          information.

          (b) Report.—Not later than 2 years after the date of the enactment of this Act, the
          Inspector General shall submit a report to Congress on the study conducted
          under this section. Such report shall include recommendations for such



                     96 Tax Relief and Health Care Act of 2006, P.L. No. 109-432, Division B, Title II, § 203,
                   December 16, 2007.




OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                    36
A   P   P E N D       I X     ~         A


              legislation and administrative action, such as a noncoverage policy or denial of
              payments, as the Inspector General determines appropriate, including—

              (1) recommendations on processes to identify never events and to deny or recoup
              payments for services furnished in connection with such events; and

              (2) a recommendation on a potential process (or processes) for public disclosure of
              never events which—

              (A) will ensure protection of patient privacy; and

              (B) will permit the use of the disclosed information for a root cause analysis to
              inform the public and the medical community about safety issues involved.

              (c) Funding.— Out of any funds in the Treasury not otherwise appropriated,
              there are appropriated to the Inspector General of the Department of Health and
              Human Services $3,000,000 to carry out this section, to be available until
              January 1, 2010.

              (d) Never Events Defined.—For purposes of this section, the term “never event”
              means an event that is listed and endorsed as a serious reportable event by the
              National Quality Forum as of November 16, 2006.




    OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   37
Δ   A P P E N D I X                       ~            B

GLOSSARY OF SELECTED TERMS 97

          Adverse event—Any harm (injury or illness) caused by medical care. Identifying
          adverse events indicates that the care resulted in an undesirable clinical outcome
          and that the clinical outcome was not caused by an underlying disease, but does
          not imply an error, negligence, or poor quality care.
          Corrective action plan—Policy and procedural actions that hospitals prepare to
          respond to an adverse event and to prevent recurrence.
          Evidence-based clinical practice guidelines—Practices found to increase patient
          safety and improve care, generated by systematic and evidentiary research.
          Hospital-acquired condition—Medical condition not present prior to admission to
          a hospital.
          Just culture—An environment in which personnel feel comfortable disclosing
          errors (including their own) while maintaining professional accountability;
          purports that individuals should not be held responsible for systems breakdowns.
          Medical error—The failure of a planned action to be completed as intended or the
          use of a wrong plan to achieve an aim.
          Near miss—An event or a situation that did not produce patient harm, but only
          because of intervening factors, such as patient health or timely intervention.
          Never event—An event or a situation that should never occur in a health care
          setting. The National Quality Forum initially used the term “never events” to
          describe its list of serious events but began in 2005 to refer to the list as “serious
          reportable events.”
          Patient safety—Freedom from accidental or preventable injuries caused by
          medical care.
          Root cause analysis—A focused review of systems and processes to identify the
          basic or contributing factors that cause adverse events.
          Systems approach—Theory that most errors reflect predictable human failings in
          the context of poorly designed systems.


                      97 Definitions derived from a variety of sources, including L. T. Kohn, J. M. Corrigan,
                   and M. S. Donaldson, eds, “To Err is Human: Building a Safer Health System.” A Report of
                   the Committee on Quality of Health Care in America, Institute of Medicine, Washington,
                   DC, National Academy Press, 1999; R. M. Wachter, “Understanding Patient Safety,”
                   McGraw–Hill, 2008; and the glossary of the Agency for Healthcare Research and Quality
                   Patient Safety Network. Available online at http://www.psnet.ahrq.gov/glossary.aspx.
                   Accessed on October 10, 2008.



OEI-06-07-00470    ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                   38
      Δ            A P P E N D I X                                  ~            C

                         National Quality Forum Serious Reportable Events 98
                         The National Quality Forum (NQF) list is separated into six categories.
                         “Serious disability” is defined as loss of a body part, disability, or loss of bodily
                         function lasting more than 7 days or still present at time of discharge.

Table C1: The National Quality Forum List of Serious Reportable Events
Surgical Events
 A.    Surgery performed on the wrong body part
 B.    Surgery performed on the wrong patient
 C.    Wrong surgical procedure performed on a patient
 D.    Unintended retention of foreign object in a patient after surgery or procedure
 E.    Intraoperative or immediately postoperative death
Product or Device Events
 A.    Patient death or serious disability associated with the use of contaminated drugs, devices, or biologics provided by the health care facility
 B.    Patient death or serious disability associated with use or function of a device in patient care in which the device is used or functions other than as
        intended
 C.    Patient death or serious disability associated with intravascular air embolism that occurs while being cared for in a health care facility
Patient Protection Events
 A.    Infant discharged to the wrong person
 B.    Patient death or serious disability associated with patient elopement
 C.    Patient suicide, or attempted suicide resulting in serious disability while being cared for in a health care facility
Care Management Events
 A.    Patient death or serious disability associated with a medication error
 B.    Patient death or serious disability associated with a hemolytic reaction due to administration of ABO/HLA-incompatible blood or blood products
 C.    Maternal death or serious disability associated with labor or delivery in a low-risk pregnancy while being cared for in a health care facility
 D.    Patient death or serious disability associated with hypoglycemia, the onset of which occurs while patient is cared for in a health care facility
 E.    Death or serious disability associated with failure to identify and treat hyperbilirubinemia in neonates
 F.    Stage 3 or 4 pressure ulcers acquired after admission to a health care facility
 G.    Patient death or serious disability due to spinal manipulative therapy
 H.    Artificial insemination with the wrong donor sperm or wrong egg
Environmental Events
 A.    Patient death or serious disability associated with an electric shock while being cared for in a health care facility
 B.    Any incident in which a line designated for oxygen or other gas to be delivered to a patient contains the wrong gas or is contaminated by toxic
        substances
 C.    Patient death or serious disability associated with a burn incurred from any source while being cared for in a health care facility
 D.    Patient death or serious disability associated with fall while cared for in a health care facility
 E.    Patient death or serious disability associated with the use of restraints or bedrails while being cared for in a health care facility
Criminal Events
 A.    Care provided by someone impersonating a health care provider
 B.    Abduction of a patient of any age
 C.    Sexual assault on a patient within or on the grounds of a health care facility
 D.    Death or significant injury resulting from a physical assault that occurs within or on the grounds of the facility




                                        98 NQF, “Serious Reportable Events in Healthcare 2006 Update: A Consensus Report,”

                                     NQF, Washington, DC, 2007, p. 7. Available online at
                                     http://www.qualityforum.org/pdf/reports/sre/txsrepublic.pdf. Accessed on October 10, 2008.



         OEI-06-07-00470             ADVERSE EVENTS    IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                              39
Δ      A P P E N DU I C X T I ~O N D
      I N T R O D

         List of Stakeholders Interviewed
         We identified stakeholders using a variety of sources, including referrals from AHRQ,
         the National Patient Safety Foundation, the Joint Commission, and others, as well as
         contacts references in literature. The viewpoints of the individuals we interviewed do
         not represent official positions of their organizations.

    Table D1–List of Stakeholder Interview Respondents

    Federal Agencies
    Agency for Healthcare Research and Quality (AHRQ), Center for Quality Improvement & Patient Safety (C-QUIPS)
    Centers for Medicare & Medicaid Services (CMS), Medicare Management Services
    Centers for Medicare & Medicaid Services (CMS), Quality Improvement Group
    Centers for Disease Control and Prevention (CDC)
    Department of Defense, Patient Safety Center (DOD)
    Food and Drug Administration (FDA)
    National Institutes of Health (NIH)
    Veterans Affairs (VA), National Center for Patient Safety (NCPS)
    State Agencies
    California Department of Health
    Georgia Department of Health and Human Services
    Minnesota Department of Social Services
    Pennsylvania Department of Health
    Professional Associations
    American Medical Association (AMA)
    American Hospital Association (AHA)
    American Health Lawyers Association (AHLA)
    American Health Quality Association (AHQA)
    American Nurses Association (ANA)
    Anesthesia Patient Safety Foundation (APSF)
    American Society for Healthcare Risk Management (ASHRM)
    American Society of Health-System Pharmacists (ASHP)
    Georgia Hospital Association: Partnership for Health and Accountability (PHA)
    Minnesota Hospital Association (MHA)
    Oversight/Standard-Setting Organizations
    Federation of State Medical Boards of the U.S., Inc. (FSMB)
    Leapfrog Group for Patient Safety
    The Joint Commission
    National Committee on Quality Assurance (NCQA)
    U.S. Pharmacopeia (USP)


       OEI-06-07-00470          ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES         40
A   P    P E N D             I X          ~       D



        Table D1–List of Stakeholder Interview Respondents (continued)
        Patient Safety Advocacy Groups
        American Association of Retired Persons (AARP)
        Center for Medical Consumers
        Consumers Advancing Patient Safety (CAPS)
        Consumers Union
        Mothers Against Medical Errors (MAME)
        Partnership for Patient Safety
        Persons United Limiting Substandard Care and Errors in Healthcare (PULSE)
        Public Policy Groups
        Institute for Healthcare Improvement (IHI)
        Institute of Medicine (IOM)
        Massachusetts Coalition for the Prevention of Medical Errors
        National Academy for State Health Policy (NASHP)
        National Association for Healthcare Quality (NAHQ)
        National Patient Safety Foundation (NPSF)
        National Quality Forum (NQF)
        Urban Institute
        World Health Organization (WHO)
        Private Payers
        Managed Care Organizations—4 selected national and regional organizations
        Providers
        Hospitals—20 selected hospitals in CA, FL, GA, KS, IL, MA, MN, NY, and PA
        Networks—8 selected organizations
        Researchers associated with the following organizations
        Columbia University—National Heart, Lung and Blood Institute (MERS – TH)
        Harvard School of Public Health
        Johns Hopkins University
        University of California—San Francisco
        University of Chicago
        Service Contractors
        Cardinal Health, Inc.
        CRG Medical, Inc., Patient Safety Quality Management Solutions
        Emergency Care Research Institute (ECRI), Inc.
        Qualidigm, Inc.
        University HealthSystem Consortium, Patient Safety Net (UHC/PSN)
        Source: Office of Inspector General data collection, October 2007–April 2008.




            OEI-06-07-00470            ADVERSE EVENTS     IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   41
Δ     A P P E N D I X                               ~           E


          Examples of Data Analysis: Stakeholder Interviews and Literature
          Review
          Summary statements represent the predominant viewpoint of the 78 stakeholder
          entities that we interviewed as well as analysis from literature. The text of the
          report does not include the proportion of sources that contributed to summary
          statements for three reasons:
          •       Interview respondents represent a wide variety of entities and interests that
                  are not easily grouped to provide a sum of responses. For example, entities
                  included group interviews with representatives from large national
                  organizations as well as individual interviews with hospital staff and
                  researchers.
          •       Interviews and literature often entailed nuanced discussions of complex
                  issues, and analysis of the resulting data could not be accurately quantified.
                  In these cases, the report summarizes the range of viewpoints and provides
                  relevant examples.
          •       Not all interview respondents chose to or were able to answer each question,
                  changing the number of potential responses throughout the report. For
                  example:
                  o   Ten interview respondents declined to respond regarding whether the
                      current incidence of adverse events remains at the level reported by the
                      Institute of Medicine (IOM), indicating that it would not be useful for
                      them to speculate and that they were unaware of any accurate
                      measurement.
                  o   The Centers for Medicare & Medicaid Services nonpayment policy was
                      finalized only 2 months prior to our data collection period, and
                      representatives from 11 entities declined to respond because they did not
                      believe they were adequately informed to state an opinion.
                  o   In some cases, interview respondents provided information and insight
                      based on the occurrence of adverse events in all health care settings as
                      opposed to only the hospital setting.
          Table E1 on page 42 includes examples of our analysis of interviews and
          literature to arrive at summary statements. Although the frequencies represent
          the general opinions of the interview respondents, further related discussion
          often provided additional insight. The report presented this additional insight
          when it represented a prominent alternative view or otherwise aided
          understanding.



OEI-06-07-00470        ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   42
A P P E N D                I X          E




 Table E1. Data Analysis of Stakeholder Interviews and Literature Review


 Summary Statements                                    Page            Interview Questions                    Interview Responses

 Stakeholders perceive that the incidence of            11             What do you perceive                   Incidence similar = 63
 adverse events remains that reported by the                           is the current incidence               Substantial progress = 5
 Institute of Medicine in 1999                                         of adverse events in
                                                                                                              (n = 68)
                                                                       hospitals?

 Stakeholders view nonpayment policies for              16             What impact do you                     Primarily positive impact = 65
 adverse events as a powerful incentive to                             anticipate will result                 Primarily negative impact = 2
 improve care                                                          from nonpayment
                                                                                                              (n = 67)
                                                                       policies for adverse
                                                                       events in hospitals?

 Hospitals rely on staff and managers to                19             How does your hospital                 Hospital staff report to risk managers or quality
 report adverse events internally                                      identify adverse                       assurance departments = 20
                                                                       events?                                (n = 20)

 Stakeholders suspect substantial                       22             What proportion of                     Only a portion of events (underreporting) = 72
 underreporting of adverse events to outside                           adverse events do you                  All events are reported (no underreporting) = 1
 entities                                                              perceive are reported?
                                                                                                              (n = 73)


 Information about preventing adverse                   28             What are the barriers
 events is widely available, but hospitals do                          to progress in reducing                Most prominent—hospitals do not routinely use
 not always apply this knowledge                                       adverse events in                      guidelines to increase safety = 43
                                                                       hospitals?                             (n = 78)



 Suggested Policy Strategies to Accelerate Progress (n = 78)

 Assessing the desirability and feasibility of          33             What suggestions do                    Consider national entity to coordinate efforts
 creating a national oversight organization                            you have for                           and/or provide oversight = 37
                                                                       accelerating progress
 Focusing on hospital use of guidelines to                             in reducing adverse                    Further encourage or require hospital adherence
 reduce events                                                         events in hospitals?                   to recommended practices = 35

 Establishing methods for determining                                                                         Improve methods for measuring progress = 21
 incidence

 Expanding use of electronic health records                                                                   Facilitate use of electronic health records = 20


 Measuring and analyzing the impact of                                                                        Assess the impact of nonpayment policies = 15
 nonpayment policies

 Improving the utility of adverse event                                                                       Improve adverse event reporting systems = 12
 reporting systems

 Source: Office of Inspector General analysis of 78 stakeholder interviews and 117 published works, October 2007–April 2008.




          OEI-06-07-00470            ADVERSE EVENTS     IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                                        43
 Δ             A P P E N D I X                                  ~            F



                                           Examples of Research: Incidence of Adverse Events
                                           These examples represent a range of adverse events research using a
                                           variety of data collection methods. In some cases, the objectives of the
                                           research were other than deriving a measure of incidence.



Table F1. Incidence Rate of Adverse Events and Related Research Information


Population Studied              Incidence Rate                   Method                                                     Summary
General hospital                            3.7%             Medical record                   Clinical reviews of 30,000 medical records from hospitalizations in
admissions1                                                     review                        New York. Cited in the Institute of Medicine (IOM) report, “To Err is
                                                                                              Human: Building a Safer Health System.”
General hospital                           17.7%               Observation                    Qualitative observational study of 1,047 patients at a large urban
admissions2                                                                                   hospital. The risk for an adverse event increased by 6 percent for
                                                                                              each day spent at the hospital.
General hospital                            2.9%             Medical record                   Clinical reviews of 15,000 medical records from hospitalizations in
admissions3                                                     review                        Colorado and Utah. Cited in the IOM report, “To Err is Human:
                                                                                              Building a Safer Health System.”
General hospital                            8.0%             Medical record                   Study of 228 patients included review of medical records and
admissions4                                                review and patient                 interviews with patients.
                                                                interview
Intensive care                             20.2%               Observation                    Study of 391 critically ill patients in yearlong review. Forty-five
admissions5                                                                                   percent of all adverse events were preventable; 55 percent were
                                                                                              nonpreventable.
General hospital                            9.0%            Hospital incident                 Study of 1,000 incident reports at two hospitals. Nine percent of
admissions6                                                     reports                       patients had at least one incident report, primarily medication
                                                                                              administration incidents.

   1 T. A. Brennan, L. L. Leape, N. M. Laird, et al., “Incidence of Adverse Events and Negligence in Hospitalized Patients: Results of the Harvard Medical Practice

Study 1,” New England Journal of Medicine, 324(6), 1991, pp. 370–376. Abstract available online at http://content.nejm.org/cgi/content/abstract/324/6/370. Accessed on
October 10, 2008.
  2 L. B. Andrews, C. Stocking, T. Krizek, et al., “An Alternative Strategy for Studying Adverse Events in Medical Care,” Lancet, 349(9048), February 1997, pp. 309–313.

Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/9024373. Accessed on October 10, 2008.
   3 E. J. Thomas, D. M. Studdert, H. R. Burstin, et al., “Incidence and Types of Adverse Events and Negligent Care in Utah and Colorado,” Medical Care, 38(3), 2000,

pp. 261–271. Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/10718351. Accessed on October 10, 2008.
   4 S. N. Weingart, O. Pagovich, D. Z. Sands, et al., “What Can Hospitalized Patients Tell Us about Adverse Events? Learning from Patient-Reported Incidents,” Journal

of General Internal Medicine, 20(9). 2005, pp. 830–836. Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/16117751. Accessed on October 10, 2008.
    5 J. M. Rothschild, C. P. Landrigan, J. W. Cronin, et al., “The Critical Care Safety Study: The Incidence and Nature of Adverse Events and Serious Medical Errors in

Intensive Care,” Critical Care Medicine, 33(8), August 2005, pp. 1694–1700. Abstract available online at http://www.ncbi.nlm.nih.gov/pubmed/16096443. Accessed on
October 10, 2008.
   6 T. K. Nuckols, D. S. Bell, and H. Liu, “Rates and Types of Events Reported to Established Incident Reporting Systems in Two U.S. Hospitals," by Teryl K. Nuckols,
M.D., Douglas S. Bell, M.D., Honghu Liu, Ph.D., et al., in the June 2007 “Quality & Safety in Health Care” 16, pp. 164–168. Abstract available online at
http://qshc.bmj.com/cgi/content/abstract/16/3/164. Accessed on October 10, 2008.

Source: Office of Inspector General analysis of published works, October 2007–April 2008.




             OEI-06-07-00470               ADVERSE EVENTS      IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES                                      44
Δ    A P P E N D I X                      ~            G
    Agency Comments: Agency for Healthcare Research and Quality




OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   45
A   P P E N D         I X     G



       Agency Comments: Center for Medicare & Medicaid Services




    OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   46
A   P P E N D         I X     G




    OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   47
Δ   A C K N O W L E D G M E N T S
                      This report was prepared under the direction of Kevin K. Golladay,
                      Regional Inspector General for Evaluation and Inspections in the Dallas
                      regional office, and A. Blaine Collins, Deputy Regional Inspector
                      General for Evaluation and Inspections.
                      Ruth Ann Dorrill served as the team leader for this study. Other
                      principal Office of Evaluation and Inspections staff from the Dallas
                      regional office who contributed to this report include Amy Ashcraft,
                      Deborah Cosimo, Anthony Guerrero-Soto, Margaret Knight, Christi
                      Macrina, Jeremy Moore, and Lyndsay Patty; central office staff who
                      contributed to this report include Alan Levine, Ayana Everett, Mark
                      Richardson, and Rita Wurm.




    OEI-06-07-00470   ADVERSE EVENTS   IN   H O S P I TA L S : O V E R V I E W   OF   KEY ISSUES   48
